<html>
<title> - AMERICAN ENERGY INITIATIVE: IDENTIFYING ROADBLOCKS TO WIND AND SOLAR ENERGY ON PUBLIC LANDS AND WATERS, PART I</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      AMERICAN ENERGY INITIATIVE: 
                       IDENTIFYING ROADBLOCKS TO 
                       WIND AND SOLAR ENERGY ON 
                       PUBLIC LANDS AND WATERS, 
                         PART I--DOI OFFICIALS 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                          Friday, May 13, 2011

                               __________

                           Serial No. 112-31

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-362 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                



































                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, May 13, 2011.............................     1

Statement of Members:
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Abbey, Hon. Robert V., Director, Bureau of Land Management, 
      U.S. Department of the Interior............................     7
        Prepared statement of....................................     8
        Response to questions submitted for the record...........    43
    Bromwich, Hon. Michael R., Director, Bureau of Ocean Energy 
      Management, Regulation and Enforcement, U.S. Department of 
      the Interior...............................................    12
        Prepared statement of....................................    14

Additional materials supplied:
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey, Letter submitted for the record to 
      President Obama from various environmentalists, 
      conservationists, and clean energy advocates in support of 
      development of offshore wind along the Atlantic Seaboard 
      dated March 7, 2011........................................    34


  OVERSIGHT HEARING ON THE ``AMERICAN ENERGY INITIATIVE: IDENTIFYING 
 ROADBLOCKS TO WIND AND SOLAR ENERGY ON PUBLIC LANDS AND WATERS, PART 
               I--DEPARTMENT OF THE INTERIOR OFFICIALS.''

                              ----------                              


                          Friday, May 13, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 11:28 a.m. in Room 
1324, Longworth House Office Building, Hon. Doug Lamborn, 
[Acting Chairman of the Committee] presiding.
    Present: Representatives Lamborn, Bishop, Thompson, Tipton, 
Labrador, Fleischmann, Runyan, Markey, Holt, Costa, Sablan, 
Lujan, and Pierluisi.
    Chairman Lamborn. The Chairman notes the presence of a 
quorum, which under Rule 3(e) is two Members. The Committee on 
Natural Resources is meeting today to hear testimony, and 
before I talk about the specifics there, a couple of points of 
personal privilege.
    I would like to say first of all that our thoughts are with 
Chairman Doc Hastings, who is laid up back in Washington, and 
not feeling well, but I think he is improving. He had some 
medical issues. So that is why he could not be here today, and 
he would want to, and that is why I an filling in.
    And I want to thank also our two important witnesses for 
being here. We wanted to start right on time, but we had votes 
interfering with our schedule, and so thank you for your 
patience and being here right now.
    OK. The hearing today is titled ``American Energy 
Initiative: Identifying Roadblocks to Wind and Solar Energy on 
Public Lands and Waters, Part One--Department of the Interior 
Officials.''
    Now, under Rule 4(f), opening statements are limited to the 
Chairman and Ranking Member of the Committee. However, I ask 
for unanimous consent to include any other Members opening 
statements in the hearing record if submitted to the Clerk by 
close of business today. Hearing no objection, so ordered.
    And now I recognize myself for five minutes.

 STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Chairman Lamborn. This week the House took important action 
to expand American energy production by passing three 
bipartisan offshore drilling bills. These bills will unlock our 
oil and natural gas resources that have been placed off-limits 
by the Obama Administration, create 1.2 million jobs, and 
reduce foreign imports by one-third.
    There are different perspectives on it, and maybe that will 
be part of our discussion here today, but that is my 
perspective. These bills represented the first important steps. 
However, our work on this Committee is just beginning.
    As Chairman Hastings has repeatedly said, there will be an 
array of energy bills coming from this Committee as part of the 
House Republican's American energy initiative that will focus 
on expanding all types of energy production, including 
renewable.
    The Obama Administration has taken steps to increase 
production of both wind and solar power, and we recognize that. 
However, there are significant questions about the 
implementation of these policies, and today we will examine 
roadblocks to the development of wind and solar power on public 
lands.
    Our Federal lands are intended to be multiple-use lands, 
open to recreation, energy production, and other types of job-
creating activities. Yet, too often we have seen attempts by 
Congressional Democrats and the Obama Administration to place 
our public lands off-limits to any type of economic activity.
    This costs jobs and blocks crucial American energy 
production. I understand that the Obama Administration has an 
inherent distrust and opposition to conventional fossil fuels, 
and that environmental concerns, even highly speculative, 
unprovable speculations about the climate of the future, seem 
to trump the everyday concerns of average Americans here and 
now, such as jobs, affordable gasoline, and lessening our 
reliance on foreign sources.
    I disagree totally with that perspective, but I understand 
it. What I don't understand is how catering to 
environmentalists has even seemed to put the brakes on 
alternative sources of energy, like solar and wind power.
    The United States has some promising areas, especially in 
the West, for solar energy development. The Obama 
Administration claims that solar energy production is one of 
its highest priorities. Yet, only a tiny fraction of public 
land is even being considered for this use, and almost nothing 
has actually been made available.
    The Bureau of Land Management has created 24 solar energy 
zones on public lands in six western States. However, of the 
120 million acres of BLM land in these States, only 674,400 
acres have been identified by the Administration as proposed 
solar energy zones.
    This means that the Interior Department is offering less 
than one percent of this land for streamlined solar energy 
production. Access to public lands is not the only hurdle 
facing renewable energy projects.
    Regulatory confusion, lawsuits, and permitting delays are 
also stifling wind and solar development. For example, Bright 
Source Energy's solar project in California was halted by the 
BLM over last minute concerns regarding tortoises.
    This suspension of the project came after the company had 
already invested millions of dollars, and had gone through the 
required permitting process. In 2010, BLM issued new policy 
requiring approval from the Fish and Wildlife Service on 
specific plans for addressing eagles.
    This sudden change in policy resulted in significant delays 
to numerous wind projects, and the wind industry estimated that 
this rule cost $68 billion in wind power investment.
    The Obama Administration has launched a ``Smart From the 
Start'' wind initiative for Federal waters in the Atlantic. As 
part of this initiative the Department issued a request for 
interest on the potential for wind development in an area 
located off of Massachusetts.
    Despite receiving 11 submissions from 10 companies 
expressing interest in leasing this area, the Administration 
decided to reduce the area size by half. These are all examples 
of what appear to be unnecessary roadblocks to renewable energy 
production.
    If changes need to be made to ensure these projects are 
more than just talk and actually become reality, the Natural 
Resources Committee is prepared to act. It quite frankly 
boggles the mind that some of the biggest so-called proponents 
of renewable energy are often the same people filing lawsuits 
blocking renewable development.
    But just because the environmental communities are actually 
very fractured, and riddled with inconsistencies, doesn't mean 
that Federal agencies should be paralyzed and ineffective.
    Steps should be taken to reduce the regulatory uncertainty, 
expedite the permitting process, and remove roadblocks in order 
to appropriately expand the development of energy projects on 
public lands.
    I do thank again Director Michael Bromwich and Director Bob 
Abbey for taking the time to be here today. I look forward to 
your testimony, and exploring ways that we can work together to 
overcome obstacles to renewable energy production on Federal 
lands. And at this time, I would like to recognize the Ranking 
Member for five minutes.
    [The prepared statement of Mr. Lamborn follows:]

    Statement of The Honorable Doug Lamborn, Subcommittee Chairman, 
                     Committee on Natural Resources

    This week the House took important action to expand American energy 
production by passing three bipartisan offshore drilling bills. These 
bills will unlock our oil and natural gas resources that have been 
placed off-limits by the Obama Administration, create 1.2 million jobs 
and reduce foreign imports by one-third.
    These bills represented the first important steps, however our work 
on this Committee is just beginning. As Chairman Hastings has 
repeatedly said, there will be an array of energy bills coming from 
this Committee as part of House Republicans' American Energy Initiative 
that will focus on expanding all types of energy production--including 
renewable.
    The Obama Administration has taken steps to increase production of 
both wind and solar power, and we applaud them for that. However there 
are still questions about the implementation of these policies and 
today we'll examine roadblocks to the development of wind and solar 
power.
    Our federal lands are intended to be multiple-use lands--open to 
recreation, energy production and other types of job-creating 
activities. Yet too often we've seen attempts by Congressional 
Democrats and the Obama Administration to place our public lands off-
limits to any type of economic activity. This costs jobs and blocks 
crucial American energy production.
    The United States has some of the most promising areas, especially 
in the West, for solar energy development. The Obama Administration 
claims solar energy production is one of its highest priorities, yet 
only a tiny fraction of public land is even being considered for 
opening and almost nothing has actually been made available.
    The Bureau of Land Management (BLM) has created 24 ``solar energy 
zones'' on public lands in six Western states. However, of the 120 
million acres of BLM land in these states, only 674,400 acres have been 
identified by the Administration as proposed solar energy zones. This 
means that the Interior Department is offering less than 1 percent of 
this land for streamlined solar energy production.
    Access to public lands is not the only hurdle facing renewable 
energy projects. Regulatory confusion, lawsuits and permitting delays 
are also stifling wind and solar development. For example:
        <bullet>  BrightSource Energy's solar project in California was 
        halted by the BLM over last minute concerns regarding 
        tortoises. This suspension of the project came after the 
        company had already invested millions of dollars and had gone 
        through the required permitting process.
        <bullet>  In 2010, BLM issued new policy requiring approval 
        from the Fish and Wildlife Service on specific plans for 
        addressing eagles. This sudden change in policy resulted in 
        significant delays to numerous wind projects and the wind 
        industry estimated that this rule cost $68 billion in wind 
        power investment.
        <bullet>  The Obama Administration has launched a ``Smart from 
        the Start'' wind energy initiative for federal waters in the 
        Atlantic. As part of this initiative, the Department issued a 
        Request for Interest on the potential for wind development in 
        an area located off of Massachusetts. Despite receiving 11 
        submissions from 10 companies expressing interest in leasing 
        this area, the Administration decided to reduce the area size 
        by half.
    These are all examples of what appear to be unnecessary roadblocks 
to renewable energy production.
    If changes need to be made to ensure these projects are more than 
just talk and actually become reality, the Natural Resources Committee 
is prepared to act. It quite frankly boggles the mind that some of the 
biggest so-called proponents of renewable energy are of often the exact 
same people filing lawsuits blocking renewable development.
    Steps should be taken to reduce the regulatory uncertainly, 
expedite the permitting process and remove roadblocks in order to 
quickly and efficiently expand the development of energy projects on 
public lands.
    I want to thank Director Michael Bromwich and Director Bob Abbey 
for taking the time to be here today. I look forward to your testimony 
and exploring ways we can work together to overcome obstacles to 
renewable energy production on federal lands.
                                 ______
                                 

    STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank the gentleman, and first of all, as we 
turn our attention to renewable energy, I hope that Chairman 
Hastings is successfully renewing his health back home in 
Washington. Our thoughts and prayers are with him for a speedy 
recovery.
    America's public lands and waters are a virtually untapped 
clean energy reserve, holding some of the world's best wind and 
solar resources. Yet, in the first five months of this 
Congress, renewable energy has been an invisible issue with the 
Republican majority.
    The majority claims to be for ``All 'of the Above,'' yet 
have been entirely subsumed by their ``Oil Above All'' 
approach. This Committee has now passed three bills on the 
House Floor, and not one includes anything on wind. Not one 
includes anything about solar, or geothermal, or hydropower, or 
anything but oil.
    This is a continuation of the energy policy under President 
Bush. Now, during the eight years of the Bush-Cheney Clean 
Energy Moratorium, the Interior Department issued more than 
40,000 permits to drill for oil and gas on public lands.
    But of the more than 300 applications to build solar 
facilities that came in during that time of the Bush 
Administration, up until January 20th of 2009, exactly zero 
applications were approved for solar, and only five wind 
permits were approved.
    Fortunately, as we will hear today, leveraging America's 
renewable resources on public lands has become a top priority 
at the Interior Department under the Obama Administration 
because they have now lifted the permit moratorium on wind and 
solar on public lands.
    The largest solar power plant in the world, the first 
offshore wind farm in America, and up to 10,000 megawatts of 
other renewable energy projects, will soon commence 
construction, all on America's public lands and waters.
    The 3,800 megawatts of wind and solar projects permitted 
just last year under the Obama Administration is 13 times more 
than what was permitted during the entire eight years of the 
Bush Administration.
    I commend the Interior Department and our witnesses here 
today on this progress, but I do believe that much more must be 
done. The permitting time for wind and solar is measured in 
months, and sometimes years, while the time for oil and gas 
drilling permits is measured in weeks.
    And you don't need a blowout preventer on a solar panel. 
Wind turbines don't spill anything but wind. To even the 
playing field, the Department needs to work with stakeholders 
to complete the planning activities that will put the wind and 
solar project permitting schedule on par with oil and gas.
    This will take a greater budgeting commitment than we have 
seen thus far from the majority. Earlier this week, the 
Republican Appropriators set a funding mark for Interior and 
the Environment that is nearly $4 billion short of the 
President's request. That will not help get wind and solar 
projects online faster.
    Beginning with the voyage of the Pilgrims in 1620, millions 
of people have ridden the strong winds of the North Atlantic to 
my home State of Massachusetts, in search of greater freedom 
and opportunity.
    Today, those same winds are attracting investors, driving 
technology development, and creating good-paying jobs. Later 
this year, the Cape Wind project plans to begin planting 130 
turbines, totaling 468 megawatts into the waters off the shores 
of Massachusetts.
    It will ultimately produce 75 percent of the power for Cape 
Cod, Martha's Vineyard, and Nantucket. At this point, Cape Wind 
won't be held back by a permit from the Interior Department, or 
a power purchase agreement with the utility.
    But it could be scuttled by a lack of financing. Like many 
first-of-their-kind energy projects, financing support will be 
critical to help Cape Wind secure the necessary private 
investment.
    Yet, under Republican budget plans, the only technology 
worthy of Federal financing support is nuclear power. The 
Republican 2011 spending plan in H.R. 1 actually rescinded the 
$25 billion in loan guarantees authority for solar, and wind, 
and Smart Grid, and efficiency, while keeping $22.5 billion 
available for nuclear power. That is unbelievable.
    It is ill-conceived policy decisions such as these that can 
keep America from fully leveraging wind and solar power. This 
is a very important hearing that we are having today, and I 
hope the first of many on the subject. I thank the witnesses 
for being here. I thank you, Mr. Chairman, for calling this 
hearing.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    First of all, as we turn our attention to renewable energy today, I 
hope that Chairman Hastings is successfully renewing his health back 
home in Washington. Our thoughts and prayers are with him for a speedy 
recovery.
    America's public lands and waters are a virtually untapped clean 
energy reserve, holding some of the world's best wind and solar 
resources. Yet in the first 5 months of this Congress, renewable energy 
has been an invisible issue with the Republican majority.
    Republicans claim to be for ``All of the Above,'' yet have been 
entirely subsumed by their ``Oil Above All'' approach. This committee 
has now passed three bills on the House floor, and not one includes 
anything on wind. Not one includes anything about solar, geothermal, 
hydropower or anything but oil.
    This is a continuation of the energy policy under President Bush. 
During the 8 years of the Bush-Cheney Clean Energy Moratorium, the 
Interior Department issued more than 40,000 permits to drill for oil 
and gas on public lands. But of the more than 300 applications to build 
solar facilities that came in during that time, exactly zero were 
approved. And only 5 wind permits were approved.
    Fortunately, as we will hear today, leveraging America's renewable 
resources on public lands has become a top priority at the Interior 
Department under the Obama administration.
    The largest solar power plant in the world, the first offshore wind 
farm in America, and up to 10,000 megawatts of other renewable energy 
projects will soon commence construction, all on America's public lands 
and waters.
    The 3,800 megawatts of wind and solar projects permitted just last 
year under the Obama Administration is 13 times more than what was 
permitted during the entire 8 years of the Bush administration.
    I commend the Interior Department and our witnesses here today, 
Director Abbey and Director Bromwich, on this progress. But I do 
believe much more must be done.
    The permitting time for wind and solar is measured in months and 
sometimes years, while the time for oil and gas drilling permits is 
measured in weeks. And you don't need a blowout preventer on a solar 
panel. Wind turbines don't spill anything but wind.
    To even the playing field, the Department needs to work with 
stakeholders to complete the planning activities that will put the wind 
and solar project permitting schedule on par with oil and gas.
    This will take greater budgeting commitment than we've seen thus 
far from the majority. Earlier this week, the Republican Appropriators 
set a funding mark for Interior and the Environment that is nearly $4 
billion short of the President's request. That will not help get wind 
and solar projects online faster.
    Beginning with the voyage of the Pilgrims in 1620, millions of 
people have ridden the strong winds of the North Atlantic to my home 
state of Massachusetts in search of greater freedom and opportunity. 
Today, those same winds are attracting investors, driving technology 
development, and creating good-paying jobs.
    Later this year, the Cape Wind project in Massachusetts plans to 
begin planting 130 turbines, totaling 468 megawatts, into the waters 
off the shores of Massachusetts. It will ultimately produce 75 percent 
of the power for Cape Cod, Martha's Vineyard, and Nantucket.
    At this point, Cape Wind won't be held back by a permit from the 
Interior Department or a power purchase agreement with a utility. But 
it could be scuttled by a lack of financing. Like many first-of-their-
kind energy projects, financing support will be critical to help Cape 
Wind secure necessary private investment.
    Yet under Republican budget plans, the only technology worthy of 
federal financing support is nuclear power. The Republican 2011 
spending plan in H.R. 1 actually rescinded $25 billion in loan 
guarantee authority for solar, wind, smartgrid, and efficiency while 
keeping $22.5 billion available for nuclear power.
    It is ill conceived policy decisions such as these that could keep 
America from fully leveraging wind and solar power.
    This is a very important hearing we're having today and, I hope, 
the first of many on the subject. I thank the witnesses for being here 
today and look forward to their testimony.
                                 ______
                                 
    Chairman Lamborn. And thank you, Representative Markey, for 
your comments, and now we will launch into witness statements. 
As you probably already are aware, you are very experienced at 
this, your written testimony will appear in full in the hearing 
record.
    So we ask that your oral statements be limited to five 
minutes. You need to hit the microphone switch before you talk, 
and once again I will just say we have The Honorable Bob Abbey, 
Director of the Bureau of Land Management, and The Honorable 
Michael R. Bromwich, Director of the Bureau of Ocean Energy 
Management, Regulation and Enforcement. Thank you again, and 
Mr. Abbey, you may start.

  STATEMENT OF HON. ROBERT C. ABBEY, DIRECTOR, BUREAU OF LAND 
      MANAGEMENT, UNITED STATES DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Well, Mr. Chairman, and Members of the 
Committee, thank you for the opportunity to discuss renewable 
energy development on America's public lands. Since the 
beginning of his tenure, Secretary of the Interior Ken Salazar 
has made the development of renewable energy one of his top 
priorities.
    As the Director of the Bureau of Land Management, I share 
this goal and am pleased to report that the BLM is making great 
strides in this effort. We are ensuring environmental 
stewardship of our public lands, while fulfilling America's 
potential for our future powered by renewable energy.
    In the Energy Policy Act of 2005, Congress established a 
goal of permitting 10,000 megawatts of non-hydropower renewable 
energy on public lands by the year 2015. It is the goal of this 
Administration to permit this amount by 2012, three years ahead 
of schedule.
    In 2009, the BLM instituted a ``fast track'' process that 
identified existing renewable project applications that were 
far enough along in the permit approval process to be completed 
by the end of 2010.
    By year's end, the BLM had approved nine solar, one wind, 
and two geothermal projects. Together, these 12 projects have a 
permitting capacity of almost 4,000 megawatts.
    The BLM has positioned itself to build on last year's 
successes. In March of this year, the BLM announced 20 projects 
on the 2011 priority list; 10 solar, 5 wind, and 4 geothermal. 
In total, these 20 projects represent over 4,000 megawatts of 
renewable energy potential.
    All renewable energy projects proposed for BLM managed 
lands will receive the full environmental review required by 
the National Environmental Policy Act, and include 
opportunities for public involvement.
    The BLM and our partners within the Department of the 
Interior engage in ongoing coordination and consultation 
throughout the priority project process. The aim is to 
effectively identify potential conflicts with projects early in 
the process in order to focus permitting efforts on projects 
that have the fewest conflicts, and are the most likely to be 
approved.
    In order to achieve the goals set by Secretary Salazar, we 
have implemented a number of policies and engaged in program 
level environmental analysis designed to ensure that renewable 
energy development occurs in an environmentally responsible 
manner, and that the American people receive a fair return for 
the use of their natural resources.
    The BLM has successfully used a programmatic environmental 
impact statement process to evaluate BLM wide programs for 
geothermal and wind energy, and we are now in the process of 
completing one for the solar energy development program.
    These programmatic EIS documents examine a range of 
alternatives for establishing renewable energy programs on 
suitable BLM managed lands, and amend resource management plans 
necessary first step before the BLM can authorize specific 
projects.
    The BLM and the Department of Energy jointly published the 
draft programmatic EIS for solar in December of 2010. The 
public comment period for the solar programmatic EIS closed on 
May 2, after two extensions to encourage greater input.
    The BLM is currently reviewing comments and will use the 
public's input to help determine the best path forward. We have 
also recently implemented a number of policies regarding 
renewable energy development.
    These policies clarify NEPA documentation requirements and 
expectations. They streamline the project application review 
and approval process, and strengthen plan of development and 
due diligence requirements.
    We have established our renewable energy coordination 
offices throughout the Western United States. These offices 
have facilitated the efficient processing of applications for 
large scale solar, wind, and geothermal projects.
    Finally, there are also a number of BLM, State, and local 
land use planning efforts underway to facilitate the future 
development of renewable energy, including the BLM's Arizona 
Restoration and Design Program, which is evaluating and 
analyzing the potential of previously disturbed or contaminated 
lands for solar energy development.
    In closing, we are proud of the work that we have 
accomplished in order to stand up a renewable energy program, 
and a portfolio of projects that reflect the incredible 
resource potential of America's public lands. Can we do better? 
You bet we can, and we intend to do so.
    Mr. Chairman, I would be happy to answer any questions that 
the Committee Members may have at the appropriate time. Thank 
you.
    [The prepared statement of Mr. Abbey follows:]

                Statement of Robert V. Abbey, Director, 
       Bureau of Land Management, U.S. Department of the Interior

Introduction
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear here today to discuss renewable energy 
development on America's public lands. Since the beginning of his 
tenure, Secretary of the Interior Ken Salazar has made the development 
of the New Energy Frontier on America's public lands one of his top 
priorities. As Director of the Bureau of Land Management (BLM), I share 
that goal and I am pleased to report that the BLM is making great 
strides in this effort--approving renewable energy projects on public 
lands that will power millions of American homes, as well as 
instituting ``smart from the start'' policies that ensure environmental 
stewardship of our public lands while fulfilling America's potential 
for a future powered by renewable energy.
    The BLM is leading the nation toward the New Energy Frontier with 
active solar, wind, and geothermal energy programs. In 2010, the BLM 
approved the first nine large-scale solar energy projects on public 
lands. These projects will have an installed capacity of 3,600 
megawatts, enough to power close to 1 million homes, and will create 
thousands of jobs. Additionally, the BLM has 29 authorized wind energy 
projects on the public lands with a total of 437 megawatts of installed 
wind power capacity. Geothermal energy development on the public lands, 
meanwhile, with an installed capacity of 1,275 MW, accounts for nearly 
half of U.S. geothermal energy capacity.
    The BLM is working with local communities, state regulators, 
industry, and other Federal agencies to build a clean energy future by 
permitting the environmentally responsible development of renewable 
energy on public lands. The BLM's groundbreaking work reflects a policy 
approach that focuses on environmentally-responsible development of 
renewable energy resources on the public lands with a fair return to 
the American people for the use of their resources.
    In his Blueprint for a Secure Energy Future, President Obama 
charged the nation to make itself ``more secure and control our energy 
future by harnessing all of the resources that we have available and 
embracing a diverse energy portfolio.'' That call to action 
specifically mentioned the accomplishments of the BLM and the DOI. This 
testimony describes not only how far we have come in two short years to 
answering this call, but also how we have laid the groundwork necessary 
for a secure energy future powered by the nation's renewable energy 
resources.
Renewable Energy Authorizations & Priority Project List
    Promoting renewable energy on public lands is one of this 
Administration's and this Department's highest priorities. In Section 
211 of the Energy Policy Act of 2005 (EPAct), Congress declared that 
before 2015 the Secretary of the Interior should seek to have approved 
non-hydropower renewable energy projects (solar, wind, and geothermal) 
on public lands with a generation capacity of at least 10,000 megawatts 
of electricity. It is the goal of this Administration to meet this goal 
by 2012--three years ahead of schedule.
    In 2009, the BLM instituted a ``fast track'' process that 
identified existing renewable project applications that were far enough 
along in the permit approval process to be completed by the end of 
2010. These projects underwent full and comprehensive environmental 
review and public comment periods before the BLM made permitting 
decisions. While the BLM did not permit every project, in 2010, the BLM 
approved 9 solar projects capable of generating 3,600 megawatts of 
electricity. Additionally, in 2010 the BLM approved one wind project 
and two geothermal projects through the ``fast track'' process with a 
combined capacity of over 200 megawatts.
    The BLM has positioned itself to build on last year's successes and 
continues to move toward the goal of approving 10,000 megawatts of 
renewable energy projects by the end of 2012. In March of this year, 
the BLM announced 20 projects on the 2011 priority project list--ten 
solar, five wind, and five geothermal projects. To be a priority 
project, an applicant must demonstrate to the BLM, among other things, 
that the project has progressed far enough to formally start the 
environmental review and the public participation process. A 2011 
priority project must also have the potential to be cleared for 
approval by the end of 2011. The BLM is working to identify those 
projects that are sited in areas that minimize impacts to the 
environment.
    All renewable energy projects proposed for BLM-managed lands will 
receive the full environmental review required by the National 
Environmental Policy Act, and include opportunities for public 
involvement.
    In total, these 20 projects represent over 4,000 megawatts of 
renewable energy potential: 2,950 megawatts for the ten solar projects; 
1,000 megawatts for the five wind projects, and 500 megawatts for the 
five geothermal projects. The first of these projects, the 62-megawatt 
Coyote Canyon geothermal project in Nevada was approved in March of 
this year. Potential output on some of these projects may change 
depending on the analysis and review of each project.
    The priority list was developed using a collaborative process that 
emphasized early consultation. The Fish and Wildlife Service and the 
National Park Service provided input to the priority list. 
Additionally, the BLM and its partners within the Department of the 
Interior engage in ongoing coordination and consultation throughout the 
priority project process. This coordination and consultation is 
achieved in part through the Department's renewable energy coordination 
group, which meets on a weekly basis to discuss current projects and 
potential cross-jurisdictional issues that arise with these complex 
authorizations. This group has been effective in identifying potential 
conflicts with projects early in the process in order to focus 
permitting efforts on projects that have the fewest conflicts and are 
most likely to be approved.
``Smart from the Start'' Policies
    In order to achieve the goals set by Congress and Secretary 
Salazar, the BLM has implemented a number of policies and engaged in 
program-level environmental analysis designed to ensure that renewable 
energy development occurs in an environmentally responsible manner and 
that the American people receive a fair return for the use of their 
natural resources.
Programmatic Environmental Impact Statements
    The BLM has successfully used the Programmatic Environmental Impact 
Statement (PEIS) process to evaluate BLM-wide programs for geothermal 
and wind energy, and is in the process of completing one for solar 
energy development. A PEIS evaluates the environmental impacts of broad 
agency actions, such as the development of major programs or the 
setting of national policies. These PEIS documents examine a range of 
alternatives for establishing renewable energy programs on suitable 
BLM-managed land and amend resource management plans (RMP), a necessary 
first step before specific projects can be authorized on BLM-managed 
lands.
    The BLM published the Wind Energy PEIS in 2005.The Record of 
Decision amended 52 RMPs and identified over 20 million acres of BLM-
managed land as being suitable for wind energy development. The 
decision also established policies and best management practices for 
the administration of wind energy development activities and 
established minimum requirements for mitigation measures.
    The BLM published the Geothermal PEIS in 2008.The Record of 
Decision amended 114 RMPs and allocated about 111 million acres of 
Bureau-managed public lands as open for geothermal leasing. An 
additional 79 million acres of National Forest System lands are also 
open for geothermal leasing and administration by the BLM.
    The BLM and the U.S. Department of Energy (DOE) jointly published 
the Draft Solar Energy PEIS in December of 2010. The Draft Solar Energy 
PEIS estimates that up to 214,000 acres of public land could be needed 
over the next 20 years for solar energy projects. Under the study's 
Preferred Alternative, the BLM would establish a new Solar Energy 
Program that would standardize and streamline the authorization process 
and establish mandatory design features for solar energy development on 
BLM lands. Under this proposal, the BLM would establish Solar Energy 
Zones (SEZ's) within a larger area of approximately 22 million acres 
that would remain open to solar energy right-of-way applications. The 
proposed SEZs studied in detail in the Draft PEIS included about 
677,400 acres preliminarily identified as areas most appropriate for 
development, containing the highest solar energy potential and few 
known environmental and resource conflicts. The analyses of the 
proposed SEZs presented in the Draft Solar Energy PEIS shows that some, 
but not all of those areas, would be good places for solar projects. 
The BLM intends to prioritize solar energy development within SEZs 
carried forward in the final record of decision, and projects located 
in those areas would benefit from a more efficient, streamlined 
permitting process. After two thirty-day extensions designed to 
encourage greater public input, the public comment period for the Solar 
PEIS closed on May 2. The BLM is currently reviewing comments and 
suggestions and will use the public's input to help determine the best 
path forward.
Renewable Energy Program Policies
    While the Programmatic Environmental Impact Statements provide the 
overall framework for the BLM's renewable energy programs, the BLM has 
also recently implemented a number of policies regarding renewable 
energy development. This field guidance clarifies National 
Environmental Policy Act (NEPA) documentation requirements and 
expectations; streamlines the project application review and approval 
process; and strengthens Plan of Development (POD) and due diligence 
requirements. Additionally, the interim final rules on segregation 
(discussed below) will allow the BLM to temporarily protect lands that 
are being considered for wind or solar development from new mining 
claims. The following is a summary of recent BLM policy guidance that 
will ensure responsible development of the nation's public land 
renewable energy resources:
        <bullet>  Solar & Wind Energy Applications/Pre-Application & 
        Screening--The BLM believes it is important for all parties to 
        engage in early coordination before committing significant 
        resources to processing solar and wind energy development 
        right-of-way applications. Under this guidance, the BLM will 
        not accept a solar or wind energy development right-of-way 
        application without holding pre-application meetings. Early 
        coordination and review helps screen out projects with the most 
        serious potential environmental conflicts and helps give 
        priority to applications with the highest likelihood of success 
        in the permitting process. The BLM follows a screening and 
        prioritization process that will help direct development to 
        low-conflict areas such as previously disturbed sites, areas 
        adjacent to disturbed sites, and locations that minimize 
        construction of new roads and/or transmission lines. (BLM 
        Instruction Memorandum 2011-61)
        <bullet>  NEPA Compliance for Utility-Scale Renewable Energy 
        Right-of-Way Authorizations--Certain renewable energy projects 
        (e.g., concentrated solar) on public lands are somewhat 
        distinct from many other types of rights of way authorizations 
        due to their intensity of land use and the resulting potential 
        for significant resource conflicts. This guidance is designed 
        to help BLM field managers conduct NEPA analysis for these 
        utility-scale renewable energy projects. The policy includes 
        examples and guidance applicable to renewable energy right-of-
        way applications that supplement information in the BLM's NEPA 
        Handbook, and will assist offices that are analyzing 
        externally-generated, utility-scale renewable energy right-of-
        way applications. (BLM Instruction Memorandum 2011-59)
        <bullet>  Solar & Wind Energy Applications/Due Diligence--The 
        due-diligence requirements of right-of-way applicants for solar 
        and wind energy development projects on BLM-managed public 
        lands are updated in this guidance. There have been some 
        instances where land speculators have filed applications for 
        solar or wind energy rights-of-way, in effect, blocking 
        applicants with serious interests in the potential development 
        of solar or wind energy resources on the public lands. The BLM 
        can reduce the effects of speculation by applying the applicant 
        qualification requirements of the right-of-way regulations and 
        requiring the timely submittal of a POD consistent with the 
        requirements of the regulations. This policy also emphasizes 
        the review of pending applications and the rejection of any 
        applications where the applicant cannot demonstrate the 
        technical or financial capability required by the regulations. 
        Requiring a proof of due diligence by the applicant through the 
        timely submittal of an acceptable POD ensures that applicants 
        are not holding lands for extended periods and precluding other 
        applicants with serious interests in potential development of 
        the public lands. (BLM Instruction Memorandum 2011-60)
        <bullet>  Renewable Energy Project Segregation Rules--In April 
        2011, the BLM published two rules--a proposed rule and a 
        temporary interim final rule--to help resolve land use 
        conflicts that arise when mining claims are located in a 
        renewable energy project right-of-way application area after 
        the application is submitted but before the application can be 
        evaluated and acted upon. The two rules grant the BLM authority 
        to temporarily remove lands included in a renewable energy ROW 
        application and lands offered for wind or solar energy 
        development from land appropriations such as mining claims. 
        Under the two published renewable energy segregation rules, 
        lands with ROW applications for solar or wind energy 
        development could be segregated to ensure no new resource 
        conflicts will arise with respect to mining claims. Such 
        segregations would only be authorized as needed and would not 
        necessarily cover all lands where renewable energy ROW 
        applications have been filed. The rules would also provide for 
        termination of the segregation by the BLM upon the issuance of 
        a decision to issue or not issue a ROW for the wind or solar 
        proposal. (Federal Register Docs. 2011-10017; 2011-10019)
Other Renewable Energy Program Initiatives
    The BLM continues to build the framework necessary for an onshore 
renewable energy program, including initiatives beyond the PEIS and 
recent policy developments. The BLM's establishment of its Renewable 
Energy Coordination Offices (RECOs) in Arizona, California, Nevada, and 
Wyoming and teams in Colorado, Idaho, Montana, New Mexico, Utah, and 
Oregon/Washington has facilitated the efficient processing of 
applications for large-scale solar, wind, and geothermal projects. Fish 
and Wildlife Service and National Park Service staff are co-located in 
many of the RECOs to expedite coordinated review of renewable energy 
projects. These offices play an integral role in the processing and 
approval of renewable energy project applications on BLM-managed lands.
    BLM-Arizona's Restoration Design Energy Project, funded under the 
American Recovery and Reinvestment Act (ARRA) of 2009, supports the 
goals of building America's renewable energy resources and protecting 
and restoring treasured landscapes. The purpose of this initiative is 
to evaluate and identify disturbed, contaminated, and isolated lands in 
Arizona that also have high renewable energy potential. The project's 
draft environmental impact statement is anticipated to be completed in 
late 2011. The final environmental impact statement is expected in fall 
2012. The EIS will evaluate different types of disturbed lands, 
including landfills, mines, and brownfields. Land use planning efforts 
are also underway by BLM in other states to facilitate the future 
development of renewable energy. These efforts include the Wyoming Wind 
and Transmission Study, the California Desert Renewable Energy 
Conservation Plan, and the West Chocolate Mountains Renewable Energy 
Evaluation and Land Use Plan in California.
    The Department of the Interior is working closely with other 
partners to facilitate and encourage the development of renewable 
energy development. On July 8, 2010, Secretary Salazar and Secretary of 
Energy, Steven Chu signed an interagency Memorandum of Understanding to 
develop a Solar Demonstration Zone on federal lands in Nevada to 
demonstrate cutting-edge solar energy technologies. The Solar 
Demonstration Zone will be located in the Nevada National Security 
Site, withdrawn public lands administered by DOE's National Nuclear 
Security Administration. The MOU will enable the DOE to support the 
demonstration of innovative solar energy technologies at a scale fully 
representative of the next generation utility-scale Concentrating Solar 
Power (CSP) systems. These projects will serve as proving grounds for 
new CSP technologies, providing a critical link between DOE`s advanced 
technology development and full-scale commercialization efforts.
    Finally, the BLM is striving to provide access to remote renewable 
sources and to enhance the national electricity grid to ensure 
reliability as sources of renewable energy are brought online. The BLM 
is meeting these challenges through its land use planning processes and 
through improvements to project siting and permitting reviews. The BLM 
continues to work closely on these efforts with other Federal agencies, 
tribes, states, and other entities.
Conclusion
    The Department of the Interior and the BLM are proud of the work we 
have accomplished in order to stand up a renewable energy program and a 
portfolio of projects that reflect the incredible resource potential of 
America's public lands. I would be happy to answer any questions you 
may have.
                                 ______
                                 
    Chairman Lamborn. OK. Thank you so much. Director Bromwich.

  STATEMENT OF HON. MICHAEL R. BROMWICH, DIRECTOR, BUREAU OF 
  OCEAN ENERGY MANAGEMENT, REGULATION AND ENFORCEMENT, UNITED 
               STATES DEPARTMENT OF THE INTERIOR

    Mr. Bromwich. Thank you so much, Mr. Chairman, Mr. Markey, 
and Members of the Committee. I thank you for the opportunity 
to appear here today. I want to discuss the renewable energy 
program of the Bureau of Ocean Energy Management, Regulation 
and Enforcement, and our efforts to expedite the development of 
the Nation's offshore wind energy resources.
    BOEMRE manages the energy and mineral resources of the 
Outer Continental Shelf. The Department of Energy estimates 
that the total offshore wind potential is enormous, and the 
Nation's vast offshore wind resources are located close to our 
largest electricity demand centers.
    Offshore wind energy is capable of providing significant 
energy and environmental benefits, and it would also produce 
considerable direct and indirect economic benefits.
    Government estimates suggest that offshore wind development 
would create approximately 20.7 direct jobs per annual megawatt 
installed in United States waters, including economically 
depressed port areas that could become important in fabrication 
and staging areas for wind turbines.
    The Obama Administration has established ambitious, but 
achievable, goals for offshore wind energy development in the 
United States that require focusing on three central issues. 
Number one, technology development. Number two, market barrier 
removal; and number three, advanced technology demonstration.
    BOEMRE is working closely with other Federal agencies, 
State, local, and tribal governments, and other stakeholders, 
to establish an effective process for locating and permitting 
offshore renewable energy projects.
    The Energy Policy Act of 2005 provided the Secretary of the 
Interior with the authority to administer an OCS renewable 
program. This authority was delegated to BOEMRE, and then the 
Minerals Management Service in March of 2006.
    And in April of 2009, BOEMRE's final OCS renewable energy 
regulatory framework was issued. The regulatory framework is a 
comprehensive approach to managing the full scope of OCS 
renewable energy activities, including an initial study and 
leasing, site characterization and assessment, project 
construction and operation, and cessation and decommissioning.
    The framework reflects a renewable energy program based on 
the following principles. First, consultation and coordination 
with stakeholders of all kinds. Second, application of the 
regulatory framework in the context of interagency planning 
activities. Third, focusing on the multiple uses of the OCS, 
and fourth, achievement of our program goals.
    This framework and our process require us to work with a 
wide array of stakeholders. Our most valuable consultation and 
coordination tools have been a State-by-State intergovernmental 
task forces.
    They bring together all interested government parties to 
facilitate information sharing, and informed decision making. 
We have nine task forces on the Atlantic Coast, and one on the 
Pacific Coast.
    Since 2009, we have ought to streamline our location and 
permitting processes for wind leasing, and development, and 
have launched initiatives to support those efforts. The central 
initiative is the ``Smart From the Start'' Program, which was 
announced by Secretary Salazar on November 23, 2010.
    ``Smart From the Start'' in the offshore context is 
designed to expedite commercial wind lease issuance on the 
Atlantic OCS by doing several important things; streamlining 
processes, including a more efficient NEPA compliance review; 
identifying wind energy areas to stimulate investment in 
Atlantic OCS wind leasing and development, and processing 
transmission line proposals on a parallel, but separate, track 
from generation projects.
    We are identifying as WEAs, areas that have high wind 
resource potential, and relatively low risk of potential 
conflicts and use. BOEMRE will conduct an environmental 
assessment to analyze potential impacts and effects associated 
with issuing leases and conducting site characterization and 
assessment activities.
    If the WEA leads to a finding of no significant impact, we 
will be able to issue leases promptly, and will not have to 
prepare an environmental impact statement at that stage. This 
will allow developers to acquire leases on an expedited basis 
and enable them to more easily finance their projects.
    BOEMRE will conduct a full EIS when the lessees submit a 
construction and operations plan for review. BOEMRE has already 
began this process offshore at New Jersey, Delaware, Maryland, 
and Virginia.
    A regional WEA is being prepared and consultations are 
being conducted to address the potential environmental and 
socioeconomic impacts of lease issuance and site 
characterization surveys, and site assessment activities.
    In addition, BOEMRE has repeatedly engaged non-government 
organizations, individually and in groups, to obtain feedback. 
We conducted several stakeholder information gathering sessions 
while we were developing the framework, as well as workshops on 
the draft and final regulations.
    All of these initiatives are helping us to identify areas 
with relatively few impediments to offshore wind development, 
and move forward quickly and efficiently to promote the 
establishment of an offshore renewable energy industry.
    In sort, the Obama Administration has set ambitious, but 
achievable, goals to move forward with the development of 
domestic renewable energy. Mr. Chairman, this concludes my 
statement. Thank you again for the opportunity to be here, and 
it will be my pleasure to answer any questions that you or 
other Members of the Committee may have.
    [The prepared statement of Mr. Bromwich follows:]

  Statement of Michael R. Bromwich, Director, Bureau of Ocean Energy 
Management, Regulation and Enforcement, U.S. Department of the Interior

    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to appear here today to discuss the renewable energy 
program of the Bureau of Ocean Energy Management, Regulation and 
Enforcement (BOEMRE) and our efforts to facilitate and expedite the 
development of the Nation's offshore wind energy resources.
Outer Continental Shelf (OCS) Wind Resources and Energy Development 
        Goals
    BOEMRE manages the energy and mineral resources of the OCS, which 
comprises some 1.7 billion acres of submerged lands generally located 
between 3 and 200 nautical miles off the continental U.S., Alaska, and 
Hawaii. The U.S. Department of Energy (DOE) estimates that the total 
offshore wind potential is over 4,000 gigawatts (GW) for areas up to 50 
miles from shore with average wind speeds of 7 meters per second or 
greater at 90-meter elevation. This estimate includes the resources of 
the Great Lakes and the coastal submerged lands under state 
jurisdiction, which are not managed by BOEMRE. However, OCS lands 
constitute the vast majority of what DOE considers ``offshore'' in its 
wind energy estimate.
    According to a report prepared and issued jointly by DOE's Office 
of Energy Efficiency and Renewable Energy and BOEMRE earlier this year, 
each average GW of wind power capacity can generate 3.4 million 
megawatt-hours of electricity annually.\1\ This amount of power would 
replace the use of 1.7 million tons of coal or 27.6 billion cubic feet 
of natural gas and reduce the carbon emissions associated with those 
fossil fuels by 2.7 million metric tons. The Nation's vast offshore 
wind resources are located close to our largest electricity demand 
centers, allowing offshore wind to compete directly with fossil fuel-
based electricity generation. Northeastern and Mid-Atlantic coastal 
states especially can benefit from OCS wind resources to meet ambitious 
renewable portfolio standards and related policy goals calling for the 
use of a stable and clean supply of energy resources for electrical 
generation.
---------------------------------------------------------------------------
    \1\ A National Offshore Wind Strategy, Creating an Offshore Wind 
Energy Industry in the United States, February 7, 2011.
---------------------------------------------------------------------------
    In addition to these energy and environmental benefits, offshore 
wind energy development would have considerable direct and indirect 
economic benefits. The National Offshore Wind Strategy suggests that 
offshore wind development would create approximately 20.7 direct jobs 
per annual megawatt installed in U.S. waters. Many of these jobs would 
be located in economically depressed port areas that could become 
important fabrication and staging areas for the manufacture, 
installation, and maintenance of offshore wind turbines.
    The National Offshore Wind Strategy addresses these goals and 
discusses three focus areas that are central to achieving them--(1) 
technology development, (2) market barrier removal, and (3) advanced 
technology demonstration. BOEMRE is working closely with DOE and with 
other federal agencies, state, local, and tribal governments, and other 
stakeholders to establish an effective process for siting and 
permitting offshore renewable energy projects.
OCS Renewable Energy Regulatory Framework
    The Energy Policy Act of 2005 provided the Secretary of the 
Interior with the authority to administer an OCS renewable energy 
program. This authority, including the mandate to promulgate necessary 
regulations, was delegated to BOEMRE (then the Minerals Management 
Service) in March 2006. In early 2009, at the start of the Obama 
Administration, a draft rule had been issued, but a final regulatory 
framework was not yet promulgated. On taking office, Secretary Salazar 
addressed the remaining issues, leading to the publication of BOEMRE's 
final OCS renewable energy regulatory framework on April 29, 2009.
    The regulatory framework is a comprehensive approach to managing 
the full life cycle of OCS renewable energy activities, from initial 
study and leasing, through site characterization and assessment and 
project construction and operation, ultimately to cessation and 
decommissioning. The regulatory framework reflects a renewable energy 
program based on the following principles:
        <bullet>  consult and coordinate with federal, state, local, 
        and tribal governments and other stakeholders;
        <bullet>  apply the regulatory framework in conjunction with 
        interagency-led planning activities;
        <bullet>  focus on multiple use of the OCS; and
        <bullet>  work within current authorities and responsibilities 
        to achieve program goals.
    With over 20 existing laws and Executive Orders that apply to the 
OCS, consultation and coordination is critical to a successful 
renewable energy program. As BOEMRE strives to facilitate sustained 
development of a domestic offshore wind industry, we are working with a 
wide array of stakeholders to work together to find ways for offshore 
wind projects to proceed with minimal adverse effects on other uses and 
resources. Our most valuable consultation and coordination tools have 
proved to be the state-by-state intergovernmental task forces that we 
have established. These bodies bring together all interested and 
affected government parties to facilitate information sharing and 
foster informed and efficient decision-making. To date, we have nine 
task forces on the Atlantic coast that are helping BOEMRE to proceed 
with commercial wind energy leasing, as well as one on the Pacific 
coast that is working on marine hydrokinetic energy from waves, 
currents and tides.
    Since the OCS renewable energy regulatory framework was established 
in 2009, Secretary Salazar and BOEMRE have sought to outline, refine, 
and streamline our siting and permitting processes for wind leasing and 
development. We have launched several initiatives to support our 
efforts that I will summarize briefly.
Atlantic Offshore Wind Energy Consortium
    In early 2010 Secretary Salazar invited the governors of the 
Atlantic coast states to join with the Department of the Interior in an 
Atlantic Offshore Wind Energy Consortium (AOWEC) for the purpose of 
facilitating federal-state cooperation and coordination for the 
efficient, expeditious, orderly, and responsible development of wind 
resources along the Atlantic coast. On June 8, 2010, the Secretary and 
11 governors signed a Memorandum of Understanding (MOU) outlining the 
scope and objectives of the Consortium and establishing working groups 
charged with formulating an action plan addressing issues relating to 
(1) siting and permitting, (2) data and science, and (3) investment in 
infrastructure. DOE is serving an advisory role to BOEMRE by assessing 
national infrastructure investment requirements as described in the 
National Offshore Wind Strategy. The action plan was completed in 
February of this year, and BOEMRE is considering its recommendations, 
which relate to improving coordination, implementing pilot projects, 
revising existing statutory and regulatory authorities to streamline 
permitting, and improving data acquisition and sharing.
Smart from the Start Atlantic Wind Initiative
    On November 23, 2010, Secretary Salazar announced Smart from the 
Start, a program to expedite commercial wind lease issuance on the 
Atlantic OCS. This initiative has three main elements:
        <bullet>  streamlined processes, including more efficient 
        National Environmental Policy Act (NEPA) compliance review, for 
        renewable energy lease issuance;
        <bullet>  identification of Wind Energy Areas (WEAs) followed 
        by information gathering to stimulate investment in Atlantic 
        OCS wind leasing and development; and
        <bullet>  processing of OCS energy transmission line proposals 
        on a parallel but separate track from generation projects.
    This approach will identify as WEAs those areas of the OCS that 
have high wind energy resource potential and relatively low potential 
use conflicts. BOEMRE will then conduct an environmental assessment 
(EA) to analyze potential impacts associated with issuing leases and 
conducting site characterization and assessment activities. If the EA 
leads to a finding of no significant impact, we will be able to issue 
leases and will not have to prepare an environmental impact statement 
(EIS). This will allow developers to acquire leases on an expedited 
basis and enable them to acquire necessary financing of their projects. 
BOEMRE will conduct a full EIS when the lessee submits a construction 
and operations plan for review.
    Smart from the Start also calls for enhanced coordination on 
offshore wind within the federal government. The Department of the 
Interior has led the formation of the Atlantic Offshore Wind 
Interagency Working Group--which includes executive level officials of 
DOE, Commerce, Defense, Homeland Security, the Environmental Protection 
Agency, the Council on Environmental Quality and other federal 
agencies--to facilitate the sharing of relevant data.
    Smart from the Start has been well received by federal and state 
stakeholders and the offshore renewable energy industry.
Additional Cooperation with Other Federal Agencies
    BOEMRE is also working with interested federal agencies to 
establish agreements to facilitate coordination on OCS renewable energy 
development. For example, we have in place an MOU with DOE to 
facilitate and expedite OCS wind and hydrokinetic development. 
Consistent with this MOU, DOE is making available up to $50.5 million 
over 5 years to develop offshore wind technology and to reduce specific 
market barriers to its deployment. We also have an established MOU with 
the U.S. Fish and Wildlife Service concerning the Migratory Bird Treaty 
Act and a MOU with the Federal Energy Regulatory Commission regarding 
the leasing and licensing of marine hydrokinetic projects. Other MOUs 
in development are with the Department of Defense (Secretary), the U.S. 
Army Corps of Engineers, the U.S. Coast Guard, and the National Oceanic 
and Atmospheric Administration (NOAA). We are confident that these 
inter-agency groups will ultimately streamline permitting processes and 
promote efficient and effective decision-making.
BOEMRE Research and Studies
    BOEMRE has two main scientific research programs. The Environmental 
Studies Program (ESP) has completed numerous research projects and has 
several more that are planned or ongoing to determine and evaluate the 
effects of OCS activities on natural, historical, and human resources 
and the appropriate monitoring and mitigation of those effects. For 
example, the ESP has completed or is conducting a number of scientific 
studies that explore the potential effects of offshore wind projects on 
birds, marine species, and other aspects of the environment. BOEMRE and 
DOE co-fund a number of studies within the Environmental Studies 
Program and also partner on research efforts led by the International 
Energy Agency. Pursuant to the MOU mentioned above, DOI and DOE have 
also formed an interagency working group with other federal agencies 
including NOAA, Department of Defense (DoD), US Army Corps of Engineers 
(US ACOE), and the Department of the Navy which will facilitate an 
integrated national network for characterization of offshore wind 
resources and design conditions.
    BOEMRE's Technology Assessment and Research (TAR) Program also 
conducts research associated with operational safety, engineering 
standards, and pollution prevention.
    One noteworthy research project just completed under our TAR 
program is on Offshore Wind Energy Turbine Structural and Operating 
Safety. BOEMRE asked the National Research Council's Marine Board to 
conduct a study relating to the structural safety of offshore wind 
turbines. The study addresses three specific areas: (1) standards and 
guidelines for design, fabrication and installation of offshore wind 
turbines; (2) expected roles of third-party entities, called Certified 
Verification Agents (CVA), in overseeing the design and construction of 
offshore wind turbines and identifying standards for monitoring, 
inspection and compliance verification; and (3) expected qualifications 
to be considered a recognized CVA. BOEMRE received the final report on 
April 28, 2011, and will analyze the recommendations to determine 
whether to modify the relevant offshore renewable energy regulations.
The National Ocean Policy's Coastal and Marine Spatial Planning
    BOEMRE is implementing the OCS renewable energy program in 
accordance with Executive Order 13547, which President Obama issued in 
2010 to establish a comprehensive and integrated national policy for 
stewardship of the oceans, our coasts and the Great Lakes, including a 
framework for coastal and marine spatial planning (CMSP). We fully 
understand and support the need to work together with all OCS users and 
regulators, and we look forward to coordinating with the National Ocean 
Council and leading and participating in regional planning bodies 
undertaking CMSP. We believe our intergovernmental task forces are a 
valuable vehicle for informing these efforts. We will use an integrated 
interagency marine information system, developed in collaboration with 
the National Ocean Council, to implement Executive Order 13547. Part of 
this system will be the Multipurpose Marine Cadaster, which provides 
legal, physical, ecological, and cultural information in a common 
geographic information system framework. This tool was created in 
partnership with NOAA to comply with a mandate in section 388 of the 
Energy Policy Act of 2005.
Outreach to Non-government Stakeholders
    BOEMRE has repeatedly engaged non-government organizations (NGOs)--
individually and in groups--to obtain feedback on its regulatory 
framework and associated processes. During promulgation of our 
renewable energy regulatory framework rule, we conducted several 
stakeholder information gathering sessions, as well as workshops on the 
draft and final regulations. Since the final framework was issued, we 
have continued meeting with NGOs and stakeholders, including The Nature 
Conservancy, the National Wildlife Federation, and the Mariners 
Advisory Committee and have had valuable information exchanges. We have 
also communicated with representatives of fishing interests through the 
special working groups established by Massachusetts and Rhode Island, 
as well as the regional Fisheries Management Councils. BOEMRE also has 
continued its dialogue with industry representatives, primarily through 
the Offshore Wind Development Coalition. Based on all of our 
conversations with stakeholders, we have identified regulatory 
revisions that we will pursue to bring more clarity and efficiency to 
our processes. Our first such revision--designed to simplify the 
leasing process for offshore wind in situations where there is only one 
qualified and interested developer by eliminating a redundant and 
therefore unnecessary step--has been published and received comment. 
BOEMRE plans to complete this final rule and to propose other revisions 
in the near future.
Status of OCS Wind Development
    All of the initiatives I have just discussed are helping BOEMRE to 
identify areas where there are relatively few impediments to offshore 
wind development and move forward quickly and efficiently to promote 
the establishment of an offshore renewable energy industry.
    Our efforts have already resulted in significant accomplishments in 
offshore wind development:
        <bullet>  We have issued 4 short-term leases that permit the 
        installation of data collection facilities to inform planned 
        commercial wind development activities (3 off New Jersey and 1 
        off Delaware). These leases were issued in 2009 under an 
        interim policy initiated while the OCS renewable energy 
        regulatory framework was being developed. We anticipate the 
        first data collection facilities to be constructed this summer.
        <bullet>  Interior issued the first ever U.S. offshore 
        commercial wind energy lease in October 2010 for the Cape Wind 
        Energy Project in Nantucket Sound off Massachusetts. Shortly 
        thereafter, the lessee submitted a construction and operations 
        plan, which BOEMRE approved on April 18, 2011. The lessee hopes 
        to begin construction later this year. The Cape Wind Energy 
        Project proposal contemplates building 130 wind turbine 
        generators, 3.6 megawatts each, with the maximum capacity to 
        produce about 468 megawatts. The average expected production 
        from the wind facility could provide about 75 percent of the 
        electricity demand for Cape Cod and the islands of Martha's 
        Vineyard and Nantucket. At average expected production, Cape 
        Wind could produce enough energy to power more than 200,000 
        homes in Massachusetts.
        <bullet>  BOEMRE announced the first four WEAs--off the coasts 
        of New Jersey, Delaware, Maryland, and Virginia--established 
        under Smart from the Start on February 9, 2011, in a Notice of 
        Intent to Prepare an Environmental Assessment for Mid-Atlantic 
        Wind Energy Areas. We have determined that there is no 
        competitive interest in leasing the area made available off 
        Delaware and will complete a noncompetitive process in response 
        to NRG Bluewater Wind's commercial wind lease request. We hope 
        to make a final decision on lease issuance by the end of this 
        year. By contrast, we have determined that there is competitive 
        interest off Maryland, and we believe there will also be 
        competitive interest off New Jersey and Virginia. BOEMRE plans 
        to complete competitive processes for these three states by 
        early 2012. We will continue to consult with our 
        intergovernmental task forces on all of these leasing 
        processes.
        <bullet>  BOEMRE intends to designate a second set of WEAs--off 
        Massachusetts, Rhode Island, New York, and North Carolina--by 
        the end of this year. We have already received numerous 
        expressions of interest off the coast of Massachusetts, and we 
        will be soliciting nominations and other relevant information 
        in the other three areas in the coming months. We will continue 
        to consult with the intergovernmental task forces in these 
        states.
        <bullet>  BOEMRE will consult with the established Maine 
        intergovernmental task force concerning possible future 
        deepwater wind leasing and development and anticipates 
        establishing new task forces in Georgia and South Carolina 
        later this year. The University of Maine's DeepC wind program, 
        funded in part by DOE, is working on developing new 
        technologies, including floating wind turbines for use in deep 
        waters. BOEMRE will work with Maine in the event that any 
        entitities are interested in pursuing leasing opportunities 
        offshore Maine. We also have received an application for a 
        short-term lease for data collection off Georgia under the 
        interim policy.
        <bullet>  BOEMRE also received a request for a right-of-way for 
        a 750-mile backbone transmission line running about 10 miles 
        offshore from New York to Virginia. The developer has ambitious 
        plans for this transmission line, believing that it can link 
        future Atlantic OCS wind energy installations in a manner that 
        can facilitate efficient interconnection to the onshore 
        electrical grid. We will consult and coordinate with federal, 
        state, local, and tribal governments and other stakeholders in 
        processing this request.
Conclusion
    As I stated at the outset, we has set ambitious but achievable 
goals to help the U.S. make development of domestic sources of clean, 
renewable energy a reality. The combination of streamlined processes 
along with the increased involvement of our state and federal partners 
is helping BOEMRE make good strides in reaching those goals. We are 
excited to have a prominent role in the nation's renewable energy 
future, and we look forward to working with stakeholders to develop a 
thriving domestic offshore wind industry that is coordinated and 
supports Executive Order 13547 and the national policy for stewardship 
of the oceans.
    Mr. Chairman this concludes my statement. Thank you again for the 
opportunity to appear here. It would be my pleasure to answer any 
questions you or other Members of the Committee may have.
                                 ______
                                 
    Chairman Lamborn. OK. Thank you also, and thank you both 
for your statements. We will now begin questioning. As you can 
see, we have a smaller than usual number of Members here 
because we are done with the votes for the week, and many 
people have started their trek to the airport already.
    But with that smaller number, I am hopeful that you would 
be able to stay for a second round if Members are so desirous. 
Is that something that you would consider?
    Mr. Bromwich. Yes.
    Mr. Abbey. Yes.
    Chairman Lamborn. OK. Thank you so much. I will start in, 
and then we will go to the Ranking Member second. Director 
Abbey, in 2010, the Administration placed 34 projects on a fast 
track list for expedited permit approval, primarily in order to 
qualify for stimulus funding that expired in December.
    As BLM made decisions on which projects would be placed on 
the fast track list, can you tell me what the criteria BLM used 
to determine which projects were to be placed on that list?
    Mr. Abbey. Yes, I would be happy to. We did have 34 or so 
applications that we were reviewing, and that we thought were 
far enough along in the permitting process, but there were 
several reasons why some of those applications for projects 
were at least delayed.
    And not all of them were related to our own review process. 
Some of those projects were delayed because of the lack of 
financing, or the inability of the companies themselves to 
provide us with all the information that we needed to perfect 
those applications and do the thorough review that was 
appropriate.
    So what we focused on, Mr. Chairman, was those projects 
that were far enough along, and that had perfected 
applications, and that were located in areas that had the 
fewest risks.
    Our intent was to move forward aggressively in reviewing 
those projects, and to evaluate each of those projects in the 
manner that they deserved, and then to the best of our ability 
to approve those if we were able to mitigate the potential 
impacts from those projects.
    Our track record demonstrates that we were successful. Of 
the nine solar projects that we ended up reviewing and putting 
through that fast track project, all nine projects were 
approved, and they were approved because of the early 
consultation and coordination that took place, with not only 
within the Department of the Interior, as with agencies like 
the National Park Service, or the Fish and Wildlife Service, 
but also with other stakeholders and tribal governments.
    Chairman Lamborn. OK. Well, on that last point, did BLM 
review with outside groups or individuals which projects were 
considered advanced enough to qualify for expedited permitting, 
and did you accept outside comments for or against projects?
    Mr. Abbey. I am sorry, but we always are receptive of 
public input anywhere in our process. The value of public 
comments certainly during the scoping process helps us identify 
what are the likely issues that would need to be addressed 
through our review, and again all of those projects, or at 
least many of the projects that were identified, or all of the 
projects that were identified on the fast track list did go 
through that public scoping process to determine what were the 
issues, and how best we could evaluate those issues, and 
potentially mitigate those issues.
    So again the public did have a say during that scoping 
process. If at the end of the day it was our decision to go 
forward with those projects that we believed had the best 
chance for success.
    Chairman Lamborn. OK. Now, were the companies who had been 
making the investments leading up to this consideration, were 
they aware of this process, and the criteria that were going to 
be used for the expedited approval?
    Mr. Abbey. Well, they were certainly aware of the criteria 
that we were using to evaluate their own applications. We 
maintained a close working relationship with all proponents of 
such projects, and really all projects that are being proposed 
for public lands.
    We want to understand what the proposal is, and what are 
the likely consequences and the timelines that the proponents 
are anticipating that they need in order to get the approvals 
for their projects.
    So even though we have delayed some of those projects, that 
doesn't mean that we have denied those projects, and that we 
are currently continuing to review all applications that are 
before us to determine the merits of each proposal.
    Chairman Lamborn. OK. Now, do you think that your 
willingness to process permits could impact the financing that 
applicants are working toward on these various projects?
    Mr. Abbey. Well, some of those applications that we 
reviewed as potentially fast track projects fell out because 
they were unable to get financial assurances. So again no doubt 
that some of our actions do impact the abilities of some of the 
companies to go forward and get the financing that they require 
for their projects.
    But again that is no surprises as far as the timelines that 
we require in order to conduct a thorough evaluation of each of 
those projects.
    Chairman Lamborn. Well, now I am trying to figure out which 
is first, the chicken or the egg. Did there lack of financing 
mean that they were not high up on the priority list, or were 
they not able to get a permit and they had lost their financing 
after that?
    Mr. Abbey. No, they never evidently had--and I can't speak 
to all of the projects or applicants, but I can speak to some 
of those that we were reviewing for the potential to place on 
the priority list.
    Some of those projects did not have financing in place for 
them to assure us that they would be able to construct in a 
timely manner those projects that we were interested in 
approving.
    So, again, without that financial capacity, that was one of 
the criteria that we took into account in identifying the 
projects that we ended up placing on the fast track list.
    Chairman Lamborn. OK. Thank you. I realize that my time is 
up. If the Committee has additional questions about this 
process would you commit to working with us to answer questions 
or concerns that we might have?
    Mr. Abbey. We would welcome that and would certainly do so.
    Chairman Lamborn. Thank you very much. Ranking Member, 
Representative Markey.
    Mr. Markey. Thank you so much, Mr. Chairman. Director 
Abbey, it takes so much longer to permit wind and solar than it 
does to permit oil and gas, which I think that people would 
like to know what is the reason for that?
    Why does it take just so much longer, and what can we do to 
shorten that time framework so that we deploy in a way that 
really helps to deal with these imported oil issues, and the 
climate change issue, and the job creation issue? You know, 
this is a real make it in America opportunity for us.
    Mr. Abbey. Well, again, I really don't know whether or not 
it takes a lot longer time. However, I will say this, in our 
oil and gas program, there are different layers of review and 
evaluation that are conducted.
    For example, we prepare a land use plan which would 
identify public lands that are managed by the Bureau of Land 
Management that would be available, or could be available for 
leasing for oil and gas resources.
    Prior to conducting any leases of those lands consistent 
with the land use plan decisions, then we would also conduct an 
additional NEPA evaluation of the areas that are being proposed 
for leases, and after that NEPA is completed, and a decision is 
made relative to going forward with such areas for leasing, 
then we also after issuing those leases, we conduct an 
environmental assessment of applications for permits to drill.
    So there is really a kind of a three-tier program for 
authorizing of the drilling on public lands. We have the land 
use planning process, and then the NEPA that is required for 
leasing, and then the NEPA that is required for processing 
applications for permits to drill.
    I will say this though. In 2009, the Bureau of Land 
Management leased 1.9 million acres of public lands for oil and 
gas, and in 2010, we leased 1.4 million acres of public lands 
for oil and gas.
    In 2009, we issued almost 4,500 applications for permits to 
drill on public lands, and in 2010, we issued 4,000 
applications for permits to drill. So if you look at the amount 
of effort going into the oil and gas program, versus what we 
are doing in the renewable energy program, there is a lot more 
that we can be doing in the wind and the renewable energy 
program than what we have done in the past, and we intend to 
improve our performance.
    Mr. Markey.--below what President Obama has asked for, what 
would those cuts do to your ability to speed up the deployment 
of wind and solar on public lands?
    Mr. Abbey. Well, again, we are still reviewing what----
    Mr. Markey. Would it hurt?
    Mr. Abbey. Well, no doubt. We have requested----
    Mr. Markey. Would it hurt significantly your ability to get 
the work done?
    Mr. Abbey. It would hurt, and it would certainly slow 
things down, Congressman, and we have proposed as part of the 
Presidential budget a funding level that we believe that we 
need in order to maintain the emphasis that we have placed on--
--
    Mr. Markey. Let me go to Director Bromwich. Would these 
budget cuts that the Republicans are proposing, $4 billion, 
hurt your ability to deploy offshore wind in this country?
    Mr. Bromwich. They would not hurt our ability, because we 
are one of the few agencies as you know that did not suffer 
significant budget cuts. So the request that we made for 
offshore have largely been granted. But could we use additional 
increments? Absolutely.
    Mr. Markey. Thank you. Let me go back to you then, Director 
Abbey. How many wind and solar permit applications are 
currently active at your agency?
    Mr. Abbey. Well, we have over 200 at last count for solar. 
I don't have the number for wind at this point in time. For 
2011, we are evaluating 20 such projects, 10 solar, and five 
wind, and five geothermal. We will be announcing projects for 
Fiscal Year----
    Mr. Markey. Well, how many--well, let me ask you this. How 
many of those would you say would be churning out power right 
now if the Department of the Interior had granted a permit the 
same day that they applied for it?
    Mr. Abbey. Well, Congressman Markey, let me just give you 
my assessment of some of those applications. Many are 
speculative in nature. The number of applications that we have 
for solar are again over 200 at last count.
    In our review of some of those applications, we believe 
that they are speculative in nature, and not necessarily ready 
to go forward and do a thorough evaluation and assessment. But 
having said that----
    Mr. Markey. So what are the real hurdles then to building 
wind and solar on public lands right now?
    Mr. Abbey. Well, there are several impediments. First, it 
is financial. Second is transmission. Third is the lack of 
power purchase agreements with some of the companies, and a 
source where they can market their power if they were to 
develop such power.
    And then no doubt the permitting process also creates some 
delays in getting some of these projects in place.
    Mr. Markey. And what about the timely tax credit 
extensions? Is that a factor?
    Mr. Abbey. Well, it would enhance their abilities to move 
forward with their projects if such a program continued.
    Mr. Markey. OK. Thank you, and thank you, Mr. Chairman.
    Chairman Lamborn. OK. I thank the Ranking Member. Now, 
let's go to the gentleman from Pennsylvania for five minutes.
    Mr. Thompson. Thank you, Mr. Chairman. I appreciate it. 
Thank you for coming and for testifying. I really very much 
appreciate that. It is a very important topic. Both of you have 
been talking about and reflecting on the permitting process, 
and certainly that is something that sometimes takes time, 
frustrating amounts of time, and a lot of unnecessary 
litigation, and it often times frankly only serves to muddle 
the permitting process and slow down the approvals.
    I wanted to pursue a little more about how you are working 
to streamline the permitting. ``Smart From the Start'' sounds 
like a good approach, and looking at that, and building some 
efficiencies into that process. Frankly, are there other things 
that you are looking at, that the agencies are looking at, or 
what can Congress do to help make this permitting process more 
efficient and less wasteful?
    Mr. Bromwich. You are right, Congressman, in that the 
``Smart From the Start'' Program will make much more efficient 
the permitting process, because we are doing at the outset 
environmental assessments rather than full scale environmental 
impact statements.
    We are waiting until the stage where companies file a 
construction and operations plan before we do a full EIS, and 
that was specifically designed to shrink the period of time 
through which companies had to go through the entire process.
    We are continuously thinking about ways to further shrink 
that process, because there is consensus in the Department, and 
certainly in my agency, that the current timeline is too long. 
So we are actively and continuously engaging with industry, and 
with other stakeholders to try to figure out ways to cut 
further time off the process.
    There are certain parts of the process, including public 
comment, and including environmental reviews, that simply have 
to be done. Those are irreducible. But we are going to continue 
to work to find ways to further cut down on the permitting 
process time.
    Mr. Thompson. Well, I want to congratulate you for looking 
at that. I think that is a good approach. Director Abbey, my 
question is from the lessons learned with this, because it 
seems like you roll this out specifically with wind, are there 
other opportunities? Are these concepts something that can be 
applied to all forms of energy permitting on Federal lands?
    Mr. Abbey. Certainly we have learned as we go, no doubt. 
The Bureau of Land Management, and certainly those that we have 
worked with within the Department of the Interior have shown 
over the last two years that extraordinary progress can be made 
in conformance with NEPA, and in coordination with State 
agencies, and tribal groups, and local governments, and other 
entities.
    You know, our successes in permitting the solar projects in 
California and in Nevada, the first nine solar projects ever 
built on public lands, are truly showing us the way forward for 
approving utility and renewable energy programs on public 
lands.
    So it is not just how they could apply to the solar 
projects, but also to the wind projects as well, the large 
scale wind projects that we have had under review. We have had 
a successful track record for a number of years in the 
geothermal program. That is a leasing program.
    It is done under different authorities, but again 
geothermal is another renewable resource that we have ample 
supplies of in this country, and we need to take advantage of 
that.
    Mr. Thompson. How about applying this more efficient 
process to oil, natural gas, coal, all the other resources that 
we have on public lands?
    Mr. Abbey. Well, again, we try to be as efficient and as 
effective as we can in the processes that we have in place. As 
I mentioned earlier, do we continue to learn, and is there 
opportunities for us to continue our performance? Yes, there 
are.
    We work very closely to try to make sure that the people 
who we need to be consulting, and those that we need to be 
coordinating with prior to expending a great deal of effort on 
any of these projects, whether they are oil and gas leasing 
proposals, or solar, or wind, that we have the full information 
before us so that we can go forward as expeditiously as 
possible and address the many issues that each of these project 
proposals bring before us.
    Mr. Thompson. Sure. What are some of the--and specifically 
just focusing on wind, and it sounds like you will get another 
opportunity to talk about solar, but what are some of the 
specific objections that you find that are raised by those who 
live in the areas where these projects are going in, or frankly 
what are some of the environmental concerns that are being 
identified through the NEPA analysis, and the other 
environmental analysis? Let's just start with wind for the 
short period of time that I have left here.
    Mr. Abbey. Well, again, I think that as we look across 
these renewable energy projects, these are large scale 
footprints on public lands, and while everybody talks about 
being for renewable energy development, I have to admit that 
almost every project that we review, there are opponents of 
each project.
    But as we go forward, it is a matter of again working with 
the proponent when it is through our own land use planning 
process, which is a public process, and identifying the best 
locations that would have the fewest risks to sensitive 
resources that we also manage for, including wildlife habitat, 
for threatened and endangered species, and also to take into 
account what are the likely consequences of the decisions if we 
make to approve projects, and how best we can mitigate for any 
impact from those projects.
    As we look to wind, we certainly have challenges in dealing 
with some of the bald and golden eagle habitat. We are working 
very, very closely with the Fish and Wildlife Service.
    They have been an excellent partner to the Bureau of Land 
Management in helping us use the best science, the best 
information possible, as part of our analysis, and potentially 
mitigation measures.
    Mr. Thompson. OK. Thank you.
    Chairman Lamborn. Thank you. Now, the gentleman from New 
Jersey.
    Mr. Holt. Thank you, Mr. Chairman, and I thank the 
witnesses. I would like to focus on offshore wind, particularly 
in the Atlantic. So I would like to ask you, Director Bromwich, 
how would you characterize the offshore wind capacity in the 
Middle Atlantic States?
    Do you have some numbers or the number of city sized 
electric equivalent power plants?
    Mr. Bromwich. I don't have those with me, Congressman. I 
would be happy to supply those. I do know that it is considered 
by all of the experts that have reviewed it to be an enormous 
potential source of power, and I have certainly seen figures 
suggesting that what is available in the Atlantic equals the 
capacity that we currently have for electricity generation 
country-wide. So that is an enormous potential.
    Mr. Holt. I would like to ask you to repeat that for the 
record, because I think that there are few people in the United 
States who really understand.
    Mr. Bromwich. My understanding is that the potential that 
Atlantic wind holds for supplying electricity to this country 
equals what current exists nationwide for all sources, in terms 
of what currently provides electricity. That is my 
understanding, Congressman.
    Mr. Holt. Now, it is worth noting, of course, that that 
electricity, if it were generated even in-part would be close 
to the uses of obviously the Eastern Seaboard, which would be 
about the most densely populated part of the country, and has a 
lot of electricity use there.
    So this would be convenient to the use, and perhaps would 
have less transmission line site problems?
    Mr. Bromwich. That is absolutely right.
    Mr. Holt. And, again, since I think people in the Congress, 
or people around the country and their representatives here in 
Congress, often hear that wind is intermittent, and really 
can't be a reliable energy source. So you have any information 
about the consistency and strength of the wind offshore?
    Mr. Bromwich. My understanding is that the more wind farms, 
and the larger the network you have of wind turbines offshore, 
that becomes much less of a concern, and you can equalize the 
load and provide a steady stream of electricity from numerous 
wind farms that would be located off the Atlantic Coast.
    Mr. Holt. So you have now characterized this as an enormous 
source of energy that has some attractive features certainly 
and I would argue many attractive features. What does the 
Bureau and the Department in general need to do to help 
characterize this resource so that the developers who might be 
interested have what they need to move forward?
    Mr. Bromwich. I think we are on the right track. I think 
the ``Smart From the Start'' Program, which is designed to 
shorten the process, shorten the environmental reviews up front 
as they look at potentially promising wind areas, find out what 
the level of interest is among developers in the specific 
locations that have been identified.
    And as you know, one of the ones that has already been 
identified is off New Jersey, and to just continue to move that 
process forward so that we can find out who is interested, and 
find out whether there are financially, legally, and 
technically qualified to hold leases, make those 
determinations, and get those leases awarded so that we can 
move forward.
    Mr. Holt. Are you leaving it to the developers themselves 
to characterize the resource, or is the Department doing more 
to characterize the resource? So specifically what are you 
spending this year or next year to measure the wind, to 
characterize its consistency, and to make those data available 
to----
    Mr. Bromwich. We are working more on doing the preparatory 
work that goes in advance of awarding the leases. We are not 
doing insofar as I know a lot to look at the kinds of issues 
that you are talking about, in terms of figuring out how much 
wind power is available in a particular place.
    Mr. Holt. Is that because you are leaving it to the 
developers to do that work? It seems to me that there is an 
appropriate thing for our Federal Government to be doing, to 
characterize.
    Mr. Bromwich. It may well be, but my understanding, 
Congressman, is that we have not been spending our resources to 
do that. It is certainly possible that if we had more that we 
would be in a position to do that. But insofar as I know, we 
have not.
    Mr. Holt. OK. Thank you. Thank you, Mr. Chairman.
    Chairman Lamborn. OK. Thank you. The Gentleman from 
Tennessee.
    Mr. Fleischmann. Thank you, Mr. Chairman, and Gentlemen. I 
have enjoyed this very much, especially the discussion of these 
alternate forms of energy. Thank you for being before us today.
    I represent the Third District of Tennessee, and solar 
energy has grown considerably, and very, very popular in my 
district. We have had manufacturers of components come in, very 
large manufacturers, and we welcomed them to Tennessee.
    I am interested to know, Director Abbey, why there are 95 
solar permit applications currently pending under the Bureau of 
Land Management's supervision, and what factors are preventing 
these permits from being approved, sir?
    Mr. Abbey. Well, I believe there may be even more 
applications than what you listed. Again, we moved forward, and 
in the authorization process, we close coordinate with other 
Federal agencies to determine the appropriateness of where the 
applications have been filed, and which lands the applications 
have been filed on, and what potential conflicts we might 
encounter as we go forward in that review.
    We have placed our emphasis and our limited capacity on 
reviewing those applications that we believe have the best 
chance of being approved. That is a track record that we are 
very proud of.
    Since 2009, it is an area of focus that will continue, and 
we will continue by the way to also work proponents in those 
other areas to perfect their applications, and maybe even offer 
some alternatives for their consideration.
    Mr. Fleischmann. Thank you, Director Abbey, and Director 
Bromwich, this is a question for both of you. Reportedly, there 
have been wind and solar energy projects canceled or delayed 
under the supervision of your respective departments.
    Can you please explain to the Committee the criteria for 
canceling or delaying both onshore and offshore wind and solar 
energy projects, and what kind of factors must be present for 
these projects to be delayed, and how you go about determining 
what these factors are, and then in fact if they are present?
    Mr. Bromwich. I can go first because my answer will be 
short. We have not had any cancellations, and the only delays 
have involved litigation relating to the Cape Wind project, and 
those were totally out of our control.
    Mr. Abbey. And then I would add to Director Bromwich's 
answer, that as it relates to public lands managed by the 
Bureau of Land Management, we have had applications that have 
been delayed for a number of reasons.
    Again, the inability of the companies to enter into a power 
purchase agreement, and therefore, what is the need for that 
project until they get such an agreement in place. That is a 
factor in considering how we place and prioritize such a 
project.
    Another factor would be as we go forward in this scoping 
process of an application in preparation for doing the 
analysis, the environmental analysis, if we identify issues, 
and if we are unable to work with the proponent to identify 
measures that we could mitigate those environmental issues, 
then we continue to work closely with the proponent to perfect 
an application to look at it various alternatives, and even 
different locations for their projects. So that in and of 
itself sometimes will delay a potential project.
    Mr. Fleischmann. Thank you. Director Abbey, this year the 
Bureau of Land Management, Fish and Wildlife Service, and the 
National Park Service, have apparently given 20 wind, solar, 
and geothermal projects a priority status.
    We are midway through the year and only one of these 20 
have been approved. Mr. Director, would you be able to explain 
to the Committee why the other 19 have yet to be approved, and 
perhaps give us a timetable as to when we might expect them to 
be approved, sir.
    Mr. Abbey. Well, again, because of the early coordination 
and consultation with both the United States Fish and Wildlife 
Service, and the National Park Service, among other entities, 
we anticipate that many of those 20 projects will be completed 
this calendar year.
    All those projects are likely to be approved if we do not 
run into obstacles like issues that cannot be mitigated. You 
know, we are still conducting the Environmental Impact 
Statements on each of those projects, and so I don't want to 
sit here and tell you that they all will be approved, and if 
they are not approved, it won't be because we did not give it 
the attention that each of those projects deserved.
    And that we will allow our analysis to determine whether or 
not all of the projects could be approved, or which ones cannot 
be approved.
    Mr. Fleischmann. Thank you, Director. I yield back.
    Chairman Lamborn. OK. Thank you. Now the Gentleman from New 
Mexico.
    Mr. Lujan. Mr. Chairman, thank you very much, and I am glad 
that we are having this important discussion to see what truly 
can be done across the country, especially with our public 
lands, to encourage and provide certainty to be able to develop 
renewable generation, and make sure that this is something that 
this great Nation of ours is truly embracing, and not pushing 
away or discouraging.
    Director Abbey, you have mentioned power purchase 
agreements a few times. Can you tell us what they are and why 
they are so important?
    Mr. Abbey. Well, they are important because all of a sudden 
it gives legitimacy to the projects for energy that can 
actually be sold, and delivered to the market, and so the 
proponents for renewable energy, and other sources of energy, 
need to have a market in order to go forward and compensate for 
the costs that they are investing in each of those projects.
    So it is market driven. They consult and work out 
agreements with the power provider. Those agreements then 
became part of the business plan, and used to get financing in 
some cases, but more importantly, provide assurances that the 
energy that they could produce from their project being 
approved and constructed will go on to the market, and there is 
a return for their investment.
    Mr. Lujan. I appreciate that, Director Abbey, because as we 
have talked about the importance of providing the certainty 
around public utility commissions across the country having the 
certainty, really incentives, that would encourage utilities to 
engage in these discussions, and to actually talk to these 
developers, and to bring these PPAs to fruition, and provides 
the certainly necessary so that when we talk about the 
financing, we now have the ability to bring together those that 
are going to build this generation, and bring the project to 
fruition, and work with that utility company, or that small 
municipality, whatever they may be, so that they can buy the 
power that is going to be produced.
    It is a simple idea. It is one that sadly in many parts of 
the country, I don't think we have the strong incentives that 
are needed, and this Congress, I think that we could do 
something about that.
    Secretary Salazar recently said that when he was talking 
about ``Smart From the Start,'' which I want to applaud your 
efforts on, as we talked about some of the barriers that exist 
with where some of these projects have been held up, and 
providing certainty associated with ``Smart From the Start,'' 
and the planning necessary to be able to designate areas where 
you can have an accelerated NEPA process, and make sure that 
you are working in these areas so that that does not slow 
things down.
    But the Secretary warned us, the lawmakers, that investors 
will need dependable incentives, and regulations to continue 
building. So we heard a lot from Ranking Member Markey about 
the tax incentives, and tax extenders, that should be extended.
    I hope that we as a Congress have the will and the courage 
to move those forward, and create some certainty for not one 
year, but maybe for five years. But that we also act to 
establish a renewable electricity standard, which is something 
that Congressman Udall, when he served, was a big proponent of 
it here in the House, and it was included in some legislation 
going forward.
    So that way when we talk about providing the incentives 
necessary to help drive this market, you provide the certainty 
to the regulators, to public utility commissions, to utilities, 
to those that are going to bring the financing necessary to 
build these renewable energy generation projects on our public 
lands.
    And you also incentivize those that are going to provide 
the transmission conductivity required. So while I appreciate 
that this hearing is centered around what we can do to look at 
our hurdles that sometimes exist on the permitting process with 
our public lands, that there is a whole other round that could 
provide the incentives necessary to help us drive this forward.
    And I am looking forward to being able to further that 
conversation as well. One hat that I wore before I came to 
Congress was that I actually served on New Mexico's equivalent 
of the Public Utility Commission. I was honored to chair that 
body for three years.
    I certainly served on it for four years, and so 
understanding the complexities that are sometimes associated 
with helping to change legislation in New Mexico, we 
established a renewable portfolio standard, and we saw an 
acceleration associated with those that were coming to the 
State to develop more generation.
    And in New Mexico, we actually worked with our rural 
electric cooperatives to find a path forward for their 
generation and transmission company to have some certainty on 
the financing so that we can get renewable projects also with 
our rural co-ops, and it fits into the mix.
    And so, Mr. Chairman, I am glad that we are going to have a 
second round of questions because I know that I really wasn't 
able to delve into some of the questions that I have around the 
term of the contracts.
    But this is an important conversation, and I think one that 
we can find a lot of common ground on in order to get people to 
work here in the country. So, thank you, Mr. Chairman.
    Chairman Lamborn. OK. And I thank you, and I would remind 
all the Members that we can get the best focus and the best 
bang for the buck out of our witnesses when we concentrate on 
issues that our Committee has jurisdiction over.
    There are a lot of important issues out there, but that 
would be something that I think would be the most focused use 
of our time. OK. The Gentleman from Puerto Rico.
    Mr. Pierluisi. Thank you, Mr. Chairman. Good afternoon. I 
would like to make a general statement and then ask Mr. Abbey 
to relate my concerns and my statement back to the Secretary, 
Secretary Salazar, as well as the Assistant Secretary Balboa, 
that I am one who supports our country's efforts to accelerate 
the deployment and application of wind and solar energy on 
public lands.
    And so I am urging you to enhance and expedite that effort 
as much as possible, both of you actually. This potential is 
particular important to the island territories, including my 
home, Puerto Rico, where opportunities abound.
    The report recently issued by the White House Task Force on 
Puerto Rico validates that Federal and local interest in 
developing wind and solar energy in Puerto Rico, and especially 
in Vieques, the nearby Island of Vieques.
    I should note that my constituents pay over twice the 
national average for kilowatt hour for their electricity, and 
that recent prices have soared to 26 cents a kilowatt hour. A 
home to over 3.7 million American citizens, and with a 
struggling economy, energy costs are a major obstacle to Puerto 
Rico's economic growth.
    Therefore, I hope that future Interior Department budget 
requests and efforts across the Administration will address the 
wind and solar potential in Puerto Rico and the other 
territories.
    Now, referring to Vieques specifically. I advocated for a 
green plan for Vieques, and that got the attraction of the 
White House and this task force. They basically adopted that 
and they are proposing that in the report that was recently 
issued.
    Now, what happens in Vieques is that most, if not all, of 
the land owned by the Federal Government there constitutes the 
Vieques National Wildlife Refuge, and I know that you are here 
today to speak to the Bureau's role in facilitating solar and 
wind projects on your land.
    However, can you generally address how the Department might 
be collaborating on citing such projects on other Interior 
lands, such as those within the refuge system. I want to see 
your reaction there.
    I know that the Fish and Wildlife Service delegates 
authority to determine compatible use to each of its refuge 
managers. I know that. And that energy projects are addressed 
in the comprehensive planning process.
    But if there is one message that you can take back to the 
Department, it is that we are looking for flexibility and 
support from the Department in evaluating wind and solar energy 
projects on Federal land in Vieques.
    And let me put it just in plain words. When you go to 
Vieques--and I have been there many times--you see that it has 
got a lot of potential. Consistent winds for windmills. And the 
sun exposure is so amazing as well, and I am one who wants this 
refuge to be preserved, and taken care of.
    But it makes all the sense in the world, and it is so big, 
the area, to be able to locate some of this power projects 
there, and that is what I am telling you, and if you can relay 
that back to your colleagues in the Department, and I will 
really appreciate that. And if you have anything to comment or 
say about this, I am all ears.
    Mr. Abbey. Well, again, we are fortunate to have a very 
good working relationship with the Fish and Wildlife Service, 
and a Secretary of the Interior that is a proponent of 
renewable energy development.
    I will pass on your comments to the Secretary, as well as 
to Dan Ashe, who is the designee, or the nominee for the 
Director of the Fish and Wildlife Service.
    Mr. Lujan. Thank you very much. I yield back the balance of 
my time.
    Chairman Lamborn. OK. I thank the gentleman. Now, we will 
start a second round. Thank you again for agreeing to do so. 
Mr. Bromwich, a general question, and then a specific question.
    In general, does ``multiple use'' mean that existing uses 
have a higher priority than a new use, such as wind energy, 
which is fairly recent?
    Mr. Bromwich. No. We look at all the potential uses and we 
try to strike a balance, taking into account the importance of 
the various uses, and making decisions about whether the new 
use can move forward.
    Chairman Lamborn. OK. Thank you very much. Now, let me ask 
you specifically. In December of 2010 the Bureau announced a 
request for interest from the public regarding the potential 
for wind development in a 7,700 square kilometer area off the 
coast of Massachusetts.
    The Bureau received 11 submissions from 10 companies 
expressing commercial leasing interests in the area. A clear 
indication that the area is of significant interest to wind 
development, and would likely be a promising wind development 
zone.
    However, recently, BOEMRE announced the closure of more 
than half the original area as a result of comments from the 
fishing industry, State politicians, and marine biologists. Can 
you tell me what guidance the Bureau used from industry in 
advance of that closure, and what scientific studies had been 
done, or what scientific research the Bureau was relying on 
when they decided to apparently permanently close this 
obviously promising area?
    Mr. Bromwich. Well, a cornerstone of our process is 
consulting with all of the affected communities and people. 
That includes elected representatives of the State, but it also 
includes representatives of industries that are affected, and 
in this case the fishing industry.
    There was an extremely strong multi-part opposition to 
opening up the part of Massachusetts, offshore Massachusetts, 
that we have now decided to withdraw, and as a response to 
Federal agencies, and taking into account all the comments that 
we got, from the Governor of Massachusetts, down through 
fishing interests, we determined that that was the appropriate 
balance to strike in that case.
    So it is not to say that that is the same decision that we 
will make in every case, and each case is different. The 
expressions of concern and the other interests affected will 
necessarily be different in every case, and we simply try to 
make the best decisions that we can.
    We have seen in the saga of Cape Wind that has dragged on 
for 10 years that litigation can tie up these projects to a 
tremendous degree. So we thought among other things that we 
took into account, we don't want to provoke litigation if we 
can avoid it.
    So in this instance, where there was strong opposition to 
the part offshore Massachusetts, we decided to take it off the 
table for now, and we thought that was clearly the right 
decision in order to move these projects forward.
    Chairman Lamborn. OK. Thank you. Now, I am going to ask you 
to make a little bit of a prediction here. By the end of next 
year, at the end of 2012, besides the Cape Wind project, which 
as you say was 10 years in the words, and counting, apart from 
that, will the American people see any single offshore wind 
project under construction?
    Mr. Bromwich. I don't know the answer to that. I am not a 
great predictor, but I can predict this. That we will award 
almost surely a non-competitive lease this year, and we will 
almost surely award multiple competitive leases next year.
    In terms of when the construction begins, that is largely 
out of our hands, and I certainly can't read the minds of the 
developers who were responsible for the construction.
    But I can comment and make predictions based on our 
process, which is now far more expedited than it was before, 
and that we will push forward the day that we can award these 
leases, both non-competitively and competitively.
    Chairman Lamborn. OK. Thank you for your answer, and once 
again for being here. And I yield to the Ranking Member.
    Mr. Markey. OK. Thank you. Just to go back to this 
Massachusetts decision. It is my understanding that you did 
permit though, or approve an area that would be able to 
generate 4,000 megawatts of wind off of the coast of 
Massachusetts; is that correct?
    Mr. Bromwich. There is a substantial area that still 
exists, yes.
    Mr. Markey. That is correct, and just so everyone has 
knowledge, in New England, we need about 30,000 megawatts of 
capacity on a daily basis. We only use about 23,000 of it.
    Massachusetts, of the six States, consumes maybe 13,000 of 
it. So if you found an area where 4,000 megawatts can come in--
--
    Mr. Bromwich. It would be a big contributor, yes.
    Mr. Markey.--on the Massachusetts coastline over the next 
20 years, that is pretty much all we are going to need. We 
don't need more than 4,000 by the year 2030. So, just so we all 
know that your decision accommodates our fishing industry and 
our wind industry, and our wind industry endorses the decision 
that you made.
    Mr. Bromwich. That is right.
    Mr. Markey. Because we just don't need more than that. So, 
thank you. We still have Seabrook, and we still have Pilgrim, 
and we have all of the other nuclear power plants, and all the 
other electrical generating capacity.
    Now, yesterday, the Department of Energy decided not to 
extend the loan guarantee to Cape Wind, which is a big 
decision, and it has been an especially big decision because 
Wall Street is already scared, and we need government support 
in order to make sure that we can get this project off of the 
line.
    So what are the implications, Mr. Bromwich, of that 
decision yesterday in terms of all of the other projects along 
the coastline of the United States?
    Mr. Bromwich. I think that remains to be seen. I think that 
Cape Wind will continue to try to get financing, and try to get 
the loans that it needs, but there is no question, Congressman 
Markey, that that is a very significant blow.
    And I share your view that the kind of loan availability, 
including governmental loan availability, is an important 
factor in getting this very important industry off the ground.
    So I think that it is a significant problem, and I can't 
predict what the impact will be on other interested developers, 
but I would think that it can't be positive.
    Mr. Markey. OK. So the combination of the Republicans and 
their budget zeroing out loan guaranteed money, combined with 
then this decision, really does create a chilling effect going 
up and down the coastline if other developers are looking at 
Cape Wind as the first of its kind in our Nation. Would you not 
agree with that?
    Mr. Bromwich. Yes, I would agree with that.
    Mr. Markey. Yes, and so we are at a real inflection point 
here, and I would call upon the Republicans to reconsider their 
decision to zero out loan guarantees for wind and solar in 
their budget, and to keep in $20 billion for nuclear power.
    After Fukushima, it is going to be hard to find anyone that 
wants to build a nuclear power plant, but we have hundreds of 
applications for renewables that are out there, where the loan 
guarantee program can help to ensure that we move in that 
direction.
    And I know for one that Massachusetts wants to be the 
leader. We have been out trying to get this done, and this was 
a final stage, but the more that this funding is put in 
jeopardy is the more difficult that it is going to be in order 
to really create a longer term vision.
    So this is an incredible day where the Republicans are 
defending $4 billion in tax breaks for oil companies out on the 
House and Senate Floor, at the same time that they are zeroing 
out the loan guarantee programs for wind and solar.
    One industry is reporting the greatest profits in the 
history of the world, and by the way the oil industry only 
invests one-half of one percent of their funding into research, 
and semi-conductors, 17 percent of their revenue goes into 
research, and biotech, it is 19 percent of their revenues.
    And the oil industry is not investing in solar or winds for 
the future. They are investing in manufacturing that god 
already created, the oil under the ground. So that is their 
manufacturing tax credit, and this is our way of helping these 
other industries.
    So on page seven, Mr. Bromwich, of your testimony, you note 
that your agency has received a request for a right-of-way for 
750 mile backbone transmission line that would run about 10 
miles offshore from New York to Virginia.
    What is your timetable for processing this request, and 
making the consultations that you need to do in order to make 
this happen?
    Mr. Bromwich. I asked that question this morning. I don't 
have a specific time for you. We know how potentially important 
it is. We are supportive of the project, and we now have it as 
of the last day of March, I think. We have the application and 
we will move as quickly as we can to go through all the reviews 
that are necessary.
    Mr. Markey. OK. Well, Google is ready to go, and time is of 
the essence, and I would urge you to put it on a fast track.
    Mr. Bromwich. It is on a fast track, Congressman.
    Mr. Markey. It is on a fast track. OK. And what is a fast 
track? How fast is a fast track?
    Mr. Bromwich. It is as fast as our people can review all of 
the things that they need to review.
    Mr. Markey. Is that in months or years?
    Mr. Bromwich. It is not in years.
    Mr. Markey. It is not in years, and so it could be done by 
the end of this year?
    Mr. Bromwich. Oh, I hope it is, yes.
    Mr. Markey. OK. Then I think that should be our goal.
    Mr. Bromwich. I agree.
    Mr. Markey. You need to give hope to investors that there 
is something, and to these companies who are sticking their 
neck out, or necks out, that there is an end in sight to their 
hopes to be able to contribute to a new energy vision for our 
country. I thank you, Mr. Chairman.
    Chairman Lamborn. Well, the Ranking Member had some 
interesting news and predictions that you are bringing to our 
attention, including that apparently the Republican budget will 
pass the Senate. Now, the Chair would recognize the Gentleman 
from New Jersey.
    Mr. Holt. Thank you. First, let me ask the Chair for 
permission to include in the record a report issued by the 
National Wildlife Federation, entitled, Offshore Wind In the 
Atlantic: Growing Momentum For Jobs, Energy Independence, Clean 
Air, and Wildlife Protection.
    And also to include in the record a letter, dated March 7 
of this year to the President, signed by a hundred or so 
organizations and individuals from a dozen different Eastern 
States, having to do with offshore wind.
    Chairman Lamborn. Without objection.
    [The letter to the President follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]


    Mr. Holt. Thank you. And just to follow on Mr. Markey's 
very good comments, this transmission line backbone that would 
go up the Atlantic Coast, if it is going to carry anything 
other than coal generated electricity, we are going to have to 
have more incentive, more support, for developing this enormous 
attractive resource of wind offshore.
    Mr. Markey talked about the loan guarantees that I think 
are necessary for that, and I realize that is not your 
department, but we will also need I think to have good 
confidence building review process for the leasing decisions.
    For the ``Smart From the Start'' initiative, I would like 
you to explain a little bit more how the lessons learned from 
onshore renewable energy can help make the offshore development 
go smoothly, and how the offshore wind leases to be highly 
conditioned in the leases, what that really means, and whether 
that will accelerate the development of this enormous resource.
    Mr. Bromwich. Let me begin the answer this way. We have as 
I think you know, Congressman Holt, a very relatively small, 
but incredibly dedicated, staff of people who do our renewables 
work. Right now it is about 28 people who have a broad range of 
expertise.
    And I can't tell you what they have learned from onshore, 
but they could tell you what they have learned from onshore, 
and I am sure that they are applying it to the various work 
that they are doing right now.
    And I know that in devising the ``Smart From the Start'' 
Program as it applies to offshore, the Secretary and others in 
the Department used some of the lessons that they had learned 
from onshore work.
    I think that what has already happened is that the ``Smart 
From the Start'' Program has given a booster shot to the 
program. It has accelerated the pace of things to a remarkable 
degree.
    As you know, we have designated specific areas offshore New 
Jersey, Maryland, Delaware, and Virginia, and in the case of 
your State, for example, we have already put out for response a 
request for interest. That went out at the end of last month.
    And we are anticipating a very significant amount of 
interest, and then it will be our job to shift through those 
and to figure out to whom the leases should be awarded. So we 
are in a very different place now, not just in New Jersey, but 
in all of the wind energy areas that were designated recently, 
and with a whole new set that will be designated in the near 
future, to put together and get up and running a robust 
offshore wind capability that will justify the kind of 
transmission backbone that Google and its partners are looking 
to build.
    As I said before, we are going to continue to look for ways 
to improve the efficiency of our process, and to cut back even 
further on the time that it takes to go through all of the 
steps. We have already made a substantial advance by----
    Mr. Holt. So let me ask you that anywhere along the East 
Coast will there--well, how soon do you estimate will there be 
wind turbine offshore generation? And I am talking about kind 
of the 10 to 30 mile offshore region? When will we see it?
    Mr. Bromwich. I don't know. So much of it depends on the 
pace of construction of these facilities, and what happens the 
construction is in operation, and plans have been filed, as it 
has been for Cape Wind, and then what other obstacles may be in 
the way.
    And in the case of Cape Wind, there is very little left for 
us to there. There is a review of birds, and bats, and our 
monitoring program needs to be submitted. There are then 
various plans that need to be submitted, but they don't need 
our approval. We have to object within a certain period of time 
if we object.
    So that, if they get the financing, is going forward. It is 
harder to predict, and it is more speculative for me to predict 
how things will go off Delaware, off New Jersey, off Maryland, 
and off Virginia.
    I think that I share your hope that it will be soon, but 
how soon, I really can't say without any degree of certainty.
    Mr. Holt. Thank you, Mr. Chairman.
    Chairman Lamborn. Thank you. The Gentleman from California, 
Mr. Costa. And I am letting him go next with the agreement of 
Mr. Markey, because he didn't have a chance to speak in the 
first round. Thank you.
    Mr. Costa. I appreciate it, Mr. Chairman, and my colleagues 
as well. This is a very important hearing, I think, of the 
Subcommittee today because for those of us who do want to build 
a renewable robust portfolio, and trying to find out what these 
roadblocks have been for both solar and wind.
    And even in States like California that have approximately 
20 percent of our energy from renewable sources, and with the 
goal to expand that to 30 percent over the course of the next 
10 years, these challenges I think are critical.
    Mr. Abbey, I would like to talk to you because we have had 
this conversation before. There is an effort that the Bureau of 
Land Management has done with the renewable electricity 
standards that have been implemented in 29 States, and 
especially in the Southwest, with a number of areas where there 
is great potential for solar energy utilization; i.e., 
California, Nevada, New Mexico, Arizona.
    And you have been dealing with these programmatic EISs to 
do this. You have had--I can't speak for the other States, but 
I certainly know in the desert of Southern California that a 
very, I thought, good effort, collaboration between the State 
and local agencies.
    But yet as we all know, and I am reading it in our 
analysis, some of the obligations are roadblocks to solar and 
wind, to include financing demand, and project siting and 
litigation.
    I would submit to you and Members of the Subcommittee that 
it is siding and litigation that seems to be the primary 
obstacles in the case of Southern California. Where are we on 
that, Director Abbey, and where are we in the opportunity to 
produce the final programmatic environmental impact statement 
that would allow those solar projects to go forward?
    Mr. Abbey. Well, thanks for your question, Congressman 
Costa. The programmatic environmental impact statement assessed 
the environmental, and social, and economic impacts associated 
with solar energy development on public lands, and as you 
stated, in Arizona, California, Colorado, Nevada, New Mexico, 
and Utah.
    We extended the public comment period twice so that we 
could benefit from the input that we would receive from the 
public, from the industry, and other regulatory agencies that 
worked for the State and even local governments.
    That public comment period has closed, and we are assessing 
those comments at this point in time, and we anticipate moving 
forward as aggressively as possible, and responding to those 
comments, and producing a final environmental impact statement 
based upon the information that has been provided to us 
hopefully this year, or early next year.
    Mr. Costa. So you are looking at doing it before the end of 
this year hopefully?
    Mr. Abbey. The schedule was such that we were targeting 
this calendar year, and it may be in the next year based upon 
the substantial comments that we have received regarding the 
draft document.
    Mr. Costa. Are you committed to adopting solutions that 
have been recommended by the California Desert Renewable Energy 
Working Group in the near future?
    Mr. Abbey. We have taken that into consideration. Let me 
just say one thing along those lines. We have a great working 
relationship with the State of California, and because of that 
working relationship, and because of the State renewable energy 
portfolio standards that is in place, we understand the 
important role that California plays as far as helping us 
diversify our Nation's energy portfolio.
    Mr. Costa. I mean, if we can't locate solar energy 
development in that part of the State, god help us. I don't 
know that we can site it anywhere.
    Mr. Abbey. Well, I am pretty confident that we will move 
forward with projects that have been proposed, and at least of 
those projects. Litigation is something that we are----
    Mr. Costa. Is there anything that Congress should consider 
to remove barriers for agencies to try to implement these 
solutions?
    Mr. Abbey. Congressman, I am not that we need a 
Congressional engagement or involvement at this point in time. 
Certainly oversight is helpful, but nonetheless, we have all 
the authorities that we need to go out and do the job that we 
have been tasked to do.
    Mr. Costa. But I suspect that you are as frustrated as I 
am, and some of the others. The Bureau of Land Management has 
spent considerable time and effort now through two 
Administrations trying to take advantage of what is a 
tremendous potential in those States that you enumerated, where 
there is a lot of solar energy potential.
    There are literally thousands of megawatts that could be 
developed, and it just--I mean, are there any other impediments 
that are keeping us from getting there?
    Mr. Abbey. I do not believe there is. Again, the chief----
    Mr. Costa. How about the connection of the transmission and 
the moving of that power to where it can be used?
    Mr. Abbey. The transmission continues to be a challenge, 
but again I don't believe that any additional authorities are 
necessary. The challenge that we have with transmission is that 
it crosses numerous jurisdictional boundaries, and there are an 
awful lot of people that are involved in approving the 
transmission through corridors and lines.
    Mr. Costa. Well, thank you, Mr. Chairman. My time has 
expired, but we need to continue to work on this. This seems to 
be one of those areas where there is strong bipartisan 
agreement, and clearly we can do better, I think, and I will 
look forward to you making those timelines at the end of this 
year or early next year.
    Mr. Abbey. I look forward to working with you to do that.
    Chairman Lamborn. And I want to thank the Gentleman from 
California who was the Chairman of this Subcommittee for the 
previous four years, and knows many of these issues very well. 
We are going to conclude now unless someone shows up at the 
last second. The Chair recognizes Representative Bishop from 
Utah.
    Mr. Bishop. Thank you, Mr. Chairman, and I appreciate what 
the Gentleman from California was asking, because transmission 
is a key element to whether we have any kind of alternative 
energies. You have to get it from one place to another.
    So let me follow up if I could on the track in which he was 
going, because this could be a major impediment to that power. 
So, Mr. Abbey, how many transmission projects have been fully 
permitted on Federal land in, say, the last three years?
    Mr. Abbey. Congressman Bishop, I would have to provide you 
with the specific data for that request, but I will say this. 
That since 2009, BLM has permitted 500 miles of transmission 
lines across Nevada, Idaho, and California.
    Mr. Bishop. And you did not have Utah in there. Come on.
    Mr. Abbey. Well, actually, we are dedicating a transmission 
line in Utah, I think, next week.
    Mr. Bishop. Oh, good, because that is the last question 
that I have here.
    Mr. Costa. Could you name it after the Congressman?
    Mr. Bishop. No. Just don't use the word memorial in there. 
Do you have an idea of how many transmission projects that are 
currently in the pipeline with the Interior Department?
    Mr. Abbey. The answer that was just given to me is around 
35.
    Mr. Bishop. OK. And I was going to ask if there were 
delays, but obviously like the Gateway West, the EIS for 
Gateway West in Utah has been delayed for 22 months. Why was 
there a delay in that?
    Mr. Abbey. Again, there are challenges as far as 
identifying a corridor that is acceptable to everyone that is 
engaged and involved in that review process.
    Mr. Bishop. OK. Well, that is a good point, because 
obviously in developing these EISs requires multiple agencies 
to become involved in them unfortunately. So is the policy that 
you require a consensus, or a majority rule on the issuing 
where there are various opinions that may be in conflict from 
these multiple specialists from these multiple offices? How do 
you determine whether you go forward or not?
    Mr. Abbey. Well, again, it goes back to our ``Smart From 
the Start'' concept, where we try to engage and involve 
everybody early in the process, versus going forward with the 
analysis and coming up with a decision that there is little 
support for. So as we look to----
    Mr. Bishop. So, could one office stop the entire work?
    Mr. Abbey. No, they could not. They could certainly object 
to the analysis, or object to the decision, and then we would 
work through the processes to try to resolve those differences.
    Mr. Bishop. Has it ever been attempted to have like a team 
of experts congregate just in one office so they can represent 
all of it, and it can all be done in a timely manner?
    Mr. Abbey. Well, we routinely get together and coordinate 
our actions. Whether or not we need to all be in one office to 
do that on a routine basis, I am not sure that it requires 
that, but communication is a key all along that process.
    Mr. Bishop. Well, that may be one of the things that we 
should talk about in the future sometime in trying to 
consolidate that particular process. I would ask you the 
specific that is very parochial to me, and that is that segment 
to Red Butte portion of the energy gateway, and I am hoping, 
but is the Interior prepared to deliver that?
    I understand that the EIS is supposed to be published on 
May 27. Of course, if the world ends on May 21, it is a moot 
issue, but are you prepared to move forward with that one?
    Mr. Abbey. We are prepared to move forward. I am not sure 
within the time frame that you just identified, but we have 
done a lot of work to get to where we need to be as far as 
releasing that document.
    Mr. Bishop. I appreciate that, and I think that one of the 
things that people have talked about here before as I was 
listening before I came down here, we have made statements both 
from the Administration and from Congress about our need to 
invest in and integrate renewable energy sources, and sometimes 
there is an incongruity with that statement; the development 
with the resources, and especially the critical transmission 
infrastructure that we need to move that particular energy.
    I think that I have about a minute-and-a-half left there. 
If, for example, you all don't change your wildlands, and you 
do something wrong, and don't change your wildlands proposal, 
and we do something wrong, and don't actually cut the funding. 
Let's say we do something right and cut the funding to that.
    Since it is not in a--and the line item for it is part of 
the overall budget, but would any kind of change in that 
funding provide a delay in projects like these from getting 
their permits established?
    Mr. Abbey. I am not sure that there would be delay. It 
would certainly be a factor in us reviewing the proposals that 
would be before us, and take that information into account from 
the inventories that would have been performed to identify 
lands with renewable energy characteristics.
    At the end of the day, it is one factor of many that we 
would consider, and then as we go forward, make a decision to 
best serve the public.
    Mr. Bishop. And that one factor is a key in keeping this 
Committee going. I don't have any other questions, but I really 
feel somewhat naked up here if I am not asking you to release 
some documents to me. I don't have any that I really want, but 
can you give me something just for the fun of it?
    Mr. Abbey. I will give you my written notes here if you 
would like them.
    Mr. Bishop. All right. Thank you. Thank you, Mr. Abbey. 
Thank you, Mr. Chair.
    Chairman Lamborn. OK. And thank you, and I want to thank 
the two witnesses, both Directors, for their testimony. Members 
of the Committee may have additional questions for the record, 
and I would ask that you would respond to these in writing 
should they be submitted.
    If there is no further business, without objection, the 
Committee will be adjourned.
    [Whereupon, at 12:55 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    Response to questions submitted for the record by Robert Abbey, 
  Director, Bureau of Land Management, U.S. Department of the Interior

Congressman Rob Bishop (UT)
1.  You mentioned during the May 13 hearing that the Gateway West 
        environmental impact statement is being delayed due to 
        ``challenges to identifying acceptable corridors to those 
        engaged in the review process.''
a.  Can you be more specific as to the nature of those challenges?
    Answer: With a proposed route of over 1,100 miles, the Gateway West 
Transmission Line Project is the longest, and perhaps the most complex, 
interstate high voltage transmission line project currently under 
consideration in the United States. Over 2,000 miles of alternative 
routes are analyzed in detail in the Draft Environmental Impact 
Statement (DEIS). The project has a wide range of cooperating agencies, 
including Federal, state and local governments. Some of the siting 
challenges addressed in the DEIS include: location of the line on both 
Federal and private land, and use of designated corridors, such as the 
West Wide Energy Corridor; avoiding impacts to Sage Grouse and other 
sensitive species habitat; avoiding designated areas and existing 
infrastructure; and conformance with existing land use plans.
b.  Have those challenges been resolved? If not, why not?
    Answer: The BLM, working with cooperating agencies, developed a 
broad range of alternatives designed to address siting issues. BLM has 
addressed some of these challenges for instance, by locating some 
segments of the proposed line in areas where most, if not all, resource 
conflicts are avoided; for these segments, no alternative routes were 
analyzed in the DEIS. There remain project segments where a consensus 
opinion on an acceptable route does not currently exist. However, BLM 
continues to engage with cooperative agencies to try to resolve these 
remaining issues.
c.  Are those challenges within the U.S. Department of the Interior or 
        other federal agencies?
    Answer: Federal Cooperating Agencies on the Gateway West Project 
include the U.S. Forest Service, U.S. Fish and Wildlife Service, Bureau 
of Indian Affairs, National Park Service, and the Army Corps of 
Engineers. Although not all regulatory issues are resolved at this 
time, the BLM has a very good working relationship with these agencies 
and we expect resolution before the Record of Decision is issued.
d.  What is being done to resolve these issues and move this project 
        through the process?
    Answer: After the close of the Public Scoping Period in July 2008, 
the BLM allowed additional time in response to public input and for 
state and local governments to develop alternative route proposals. The 
BLM worked with these stakeholders to avoid ``fatal routing flaws'' 
from a public land perspective. These alternatives are fully considered 
in the DEIS. The project management team continues to work with 
cooperating agencies to address issues and provide as complete an 
impact analysis as current information and science allow.
    To address sage grouse and cultural resource issues, the BLM has 
formed focus groups consisting of cooperating agencies, interested 
parties, and the applicants. For sage grouse, the BLM developed an 
``Analysis Framework for Interstate Transmission Lines.'' The focus 
group is working through the four components of analysis in this first-
time application of the Framework. The approach is endorsed by the BLM, 
U.S. Fish and Wildlife Service, and the Idaho and Wyoming State Game 
Agencies. For cultural resources, a focus group is preparing a 
Programmatic Agreement (PA) required by Section 106 of the National 
Historic Preservation Act. The focus group was endorsed by the 
interested parties affected by the project and should lead to a broader 
acceptance of the PA among the interested parties.
2.  What is your expectation of how long a project of this scale should 
        take to complete the NEPA process?
    Answer: Depending on the length and complexity of a transmission 
project, four to five years for the NEPA process should be expected.
3.  Are there similar challenges for the Sigurd-to-Red Butte segment of 
        the Energy Gateway transmission project? If so, what is being 
        done to address those in a timely manner?
    Answer: The BLM is working closely with 13 Cooperating Agencies 
(Federal agencies and local governments) to identify the optimum 
routing alternatives for the Sigurd to Red Butte Project. Although this 
project does not have significant sage grouse concerns, and plan 
amendments are not needed to address visual constraints on public land, 
there are other and different challenges associated with this project 
For example, there are cultural and cultural-visual concerns and 
inventoried roadless area constraints as the southern portion of the 
route crosses the Dixie National Forest.
4.  What is your expectation of when the draft environmental impact 
        statement will be issued for the Sigurd-to-Red Butte segment?
    Answer: The Draft EIS was mailed to the public on May 27, 2011, and 
is available online at: http://www.blm.gov/ut/st/en/fo/cedar_city/
planning/deis_documents.
html. The public comment period began on June 3 and ended on July 18, 
2011. We anticipate a decision on the project in the fall of 2012.
Congressman Raul Grijalva (AZ)
la.  Before permitting a project, I think we can all agree that 
        everyone involved would like to have certainty that a project 
        is not going to experience any delays from litigation. 
        Certainty is good for industry, energy investors, endangered 
        species, irreplaceable historic and cultural resources, Native 
        American tribes and land managers. However, in the Solar Energy 
        Development Draft Programmatic Environmental Impact Statement 
        (PEIS) there are at least 20 out of 24 proposed SEZs have had 
        less than a 5% survey for cultural resources. In the PEIS, the 
        BLM states that in-depth analyses have already been performed 
        for the SEZs, or would be for future SEZs. If<5% surveys are 
        generally the best the BLM can do for identifying cultural 
        resources in ``solar energy zones,'' can you please share with 
        the Committee how the BLM plans to adequately assess potential 
        impacts to historic properties under both NEPA and Section 106 
        of the National Historic Preservation Act, thereby providing 
        certainty for preservationists as well as other interested 
        parties?
    Answer: in accordance with the requirements of Section 106 of the 
National Historic Preservation Act (N11PA), the BLM is coordinating 
with and soliciting input from the State Historic Preservation Offices 
(SHPOs) in each of the six states in the study area and from the 
Advisory Council on Historic Preservation. In addition, the National 
Council of SHPOs, the National Trust for Historic Preservation, and 
Tribal governments have been invited to consult on the Programmatic 
Environmental Impact Statement (PEIS) and the preparation of a National 
Programmatic Agreement (PA) regarding solar energy development. The PA 
will provide for a phased consultation process related to historic, 
traditional, and cultural resources for the PEIS and subsequent 
activities that could tier to the PEIS Record of Decision. Details 
regarding the consultation process are presented in Chapter 14 of the 
Draft Solar PEIS. Additional information, including copies of 
correspondence with Tribes, is included in Appendix K. of the Draft 
Solar PEIS.
Ib.  When the BLM creates new SEZs, will the BLM instate minimum 
        cultural resources survey thresholds before offering any new 
        SEZs like a 20% survey standard for example?
    Answer: The BLM is currently reviewing comments (comment period 
ended May 2, 2011) on the Draft Solar PEIS. Many commenters asked that 
the BLM augment its data collection for various resources by conducting 
on-the-ground surveys prior to making final decisions about solar 
energy zones (SEZ). Such comments identified the need for conducting 
targeted Class II cultural resource inventories, among others. We agree 
that identifying baseline cultural resource data through a standard 
sampling regime would be useful in assessing the potential adverse 
affect on historic properties, and we are considering various options 
in terms of time and cost. We also note that each solar energy 
development project will require additional review and consultation 
once a specific plan of development is prepared and presented to the 
BLM.
Congrcsswoman Grace Napolitano (CA)
1.  The BLM and DOE draft Programmatic Environmental Impact Statement 
        for the Development of Solar Projects in Six Western United 
        States purports to reduce the permitting time for projects. My 
        understanding is that the BLM must still conduct an 
        environmental review for each project because the PEIS does not 
        get into site specific and project specific environmental 
        impacts. Please provide a schedule showing exactly how much 
        time the PEIS will save, and why, over the normal time for the 
        BLM to process an application for a solar project or a 
        transmission line project needed to delivery energy from a 
        solar project?
    Answer: The Programmatic Environmental Impact Statement (PEIS) will 
help the BLM establish a framework for siting solar energy development 
projects and identify and prioritize locations on public lands best 
suited for solar energy development (i.e., those identified through a 
comprehensive environmental analysis as containing the highest solar 
energy potential and the fewest environmental and resource conflicts). 
Once completed, the PEIS will provide environmental analysis to which 
future projects may tier under the National Environmental Policy Act 
(NEPA). It would be difficult to ascertain how much time the PEIS would 
save because each project is unique. However, by tiering to the Solar 
PEIS' analysis, future environmental reviews may be expedited by 
focusing on a narrower range of alternatives and by avoiding redundancy 
by concentrating only on issues not already analyzed.
2.  The BLM, U.S. Fish and Wildlife Service have entered into a 
        Memorandum of Understanding with various California agencies to 
        create a Renewable Energy Policy Group to facilitate the 
        permitting of renewable energy projects. Related to that 
        effort, BLM and other federal, state, and focal agencies, along 
        with industry, environmental organizations, and the public are 
        involved in the development of the Desert Renewable Energy 
        Conservation Plan (DRECP) that is intended to facilitate 
        renewable energy project review and approval and provide long-
        term endangered species permit assurances. One of the products 
        will identify and map areas for renewable energy project 
        development. How is (he PEIS for Solar Development taking into 
        account the work of the DRECP?
    Answer: A number of regional and state initiatives, including the 
California Desert Renewable Energy Conservation Plan (DRECP), have been 
started in the six-state study area evaluated in the Solar PEIS.
    Appendix D of the Solar PEIS provides an overview of the regional 
and state initiatives that specifically address renewable energy 
development in the six-state study area. It also includes maps 
depicting how these efforts relate to the lands proposed by the BLM as 
being available for solar energy development or proposed as SEZs.
    Specifically, the DRECP is intended to advance state and federal 
natural resource conservation goals in the Mojave and Colorado desert 
regions of southern California, while also facilitating the timely and 
streamlined permitting of renewable energy projects. The DRECP will 
include a strategy that identifies and maps areas for renewable energy 
development and areas for long term natural resource conservation. The 
DRECP was initiated after the BLM began its evaluation of the six-state 
study area for the Solar PEIS, is currently collecting additional data, 
and is not expected to be completed until after the Solar PEIS Record 
of Decision has been issued. Because both efforts may result in 
amendments to the California Desert Conservation Area (CDCA) plan, 
there has been and will continue to be close coordination between the 
two efforts. The outcome of the DRECP is anticipated to result in 
additional refinements to the decisions expected to be made on the 
basis of the Solar PEIS, including any lands prioritized for renewable 
energy development and any lands excluded from renewable energy 
development in the CDCA.
3.  The BLM seems to be moving towards more of a business-like 
        relationship with renewable energy developers on public lands. 
        The renewable energy industry is supportive and like their 
        private lands projects, the BLM is a business partner in the 
        development process. Does the BLM acknowledge that in a 
        business transaction there is a significant amount of risk 
        assumed by both parties and all contracts and agreements should 
        be drafted to address these risks? Industry is concerned about 
        the outdated, template forms that the BLM requires developers 
        to sign without any opportunity to suggest changes. These 
        documents include cost recovery agreements, memorandums of 
        understanding, and right of way grants. Industry is running 
        into significant problems obtaining financing because of poorly 
        drafted or unclear language in these documents. Would the BLM 
        consider a process where a developer would have an opportunity 
        to provide comment (a redline draft) of an agreement which 
        would then be reviewed by an Interior Department Solicitor for 
        consistency with federal regulations? The types of changes that 
        industry is seeking are replacing references to outdated policy 
        and regulations, ensuring relationships with third party 
        consultants and cooperating agencies are clearly spelled out, 
        and terms and conditions of the agreements are clearly defined.
    Answer: There are a variety of different BLM documents and 
agreements associated with the processing of wind and solar rights-of-
way on the public lands. Some of these documents are standard template 
documents that need to be retained for consistency purposes. These 
types of documents include the standard terms of the right-of-way grant 
and the template for cost recovery agreements.
    There are other documents, including the stipulations attached to a 
right-of-way grant, which are developed through the NEPA process and 
should be clear and understandable. Applicants or project proponents 
should have an opportunity to review these stipulations to make sure 
they arc clear and understandable, and it is appropriate for individual 
companies to work with the local BLM office to ensure these 
stipulations are clear and understandable. However, the BLM authorized 
officer retains the authority to accept or reject any suggested 
revisions to these documents.
4.  The Wind Industry understands that the federal government must 
        propose new policies to keep up with the ever-changing public 
        interests and impact concerns. They were pleased when the BLM's 
        PEIS for wind was being developed that industry representatives 
        were allowed to provide input and the policies were created 
        through a public process, taking into consideration the 
        concerns of a variety of stakeholders. However, more recently, 
        several new policies (IMs) have come out which have a great 
        impact on renewable energy development, and industry is not 
        allowed any input during the development of these policies. Why 
        has the BLM recently chosen to adopt policies unilaterally 
        without any consultation with the parties most affected by 
        these policies, especially in light of the strong track record 
        of collaboration on past policies such as the wind PEIS and 
        related IMs? The renewable energy industry sees the BLM as a 
        partner in the development process and would appreciate if the 
        BLM would consider soliciting opinions of industry experts 
        before releasing policy which is often met with contention. 
        Would the BLM consider appointing a panel of expert industry 
        representatives to review proposed policy to help the BLM draft 
        the most appropriate and productive policies to meet their 
        goals, while continuing to encourage renewable energy 
        development on public lands, as has been stated time and again 
        as a priority for the federal government?
    Answer: The BLM has a strong history of collaborating with industry 
and will continue to maintain that working relationship. While our 
Instruction Memoranda generally deal with the orderly administration of 
public lands and generally do not have a public comment period, the BLM 
is always interested in hearing from our industry partners as well as 
other stakeholders and the public in general about impacts to them.
5.  One of the biggest problems with NEPA is the duplication of 
        responsibility among resource agencies (e.g., BLM Sensitive 
        Species List and USFWS Candidate, Threatened and Endangered 
        Species List). This fragmentation and duplication adds greatly 
        to the problem of coordination of NEPA with other laws and with 
        conflicting agency missions. Under most current practices, a 
        project often proceeds under NEPA in a 'best public fit 
        scenario,' only to be substantially delayed by interpretation 
        of policy memorandums and guidance documents, and exceptionally 
        broad interpretations of permitting and analysis requirements. 
        How does the BLM plan to use the RECO offices and staff to 
        effectively minimize this type of duplication?
    Answer: The objective of RECO offices is to facilitate the 
expeditious processing of applications for renewable energy projects on 
the public lands. However, the close collaboration with other agencies 
does not mean that the BLM can abdicate its responsibility to comply 
with federal laws and regulations, even if those laws appear 
duplicative of other agencies' laws and mandates. We will continue, 
however, to minimize and streamline our procedures with other agencies 
to the greatest extent possible.

                                 <all>

</pre></body></html>
